App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 19-11088
-----------------------------------------------------------------------

D.C. Docket No. 1:16-cv-03503-TWT
THE PAINE COLLEGE,
Plaintiff-Appellant,
versus
THE SOUTHERN ASSOCIATION
OF COLLEGES AND SCHOOLS
COMMISSION ON COLLEGES, INC.,
Defendant-Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia
-----------------------------------------------------------------------

(April 16, 2020)
Before WILSON and BRANCH, Circuit Judges, and
RESTANI,* Judge.
-----------------------------------------------------------------------

* Honorable Jane A. Restani, Judge for the United States
Court of International Trade, sitting by designation.

App. 2
PER CURIAM.
The Paine College (“Paine”), a private college in
Georgia, appeals from a grant of summary judgment to
the Southern Association of College and Schools’
(“SACS”) sub-unit, the Commission on Colleges, Inc.
(“the Commission”). The college initially brought suit
against the Commission after the Commission revoked
Paine’s SACS accreditation. Paine alleges that summary judgment was inappropriate because the record
revealed that the Commission failed to follow procedural rules in evaluating Paine’s status such that the
college’s common law due process rights were infringed. After a review of the record, and with the benefit of oral argument, we affirm.
I.

Background

Paine is a private, co-educational, liberal arts college located in Augusta, Georgia. “SACS . . . is one of
six regional educational accrediting associations, recognized by the Department of Education. . . . Accreditation by a recognized accrediting agency, such as
SACS, is a prerequisite for an institution’s students to
receive federal financial assistance.” Wilfred Acad. of
Hair & Beauty Culture, Hous., Tex. v. S. Ass’n of Colls.
& Schs., 957 F.2d 210, 212 (5th Cir. 1992).1 The
1

Accreditation is a prerequisite to federal funding because
“[t]he Secretary recognizes accrediting agencies to ensure that
these agencies are, for the purposes of the Higher Education Act
of 1965 . . . reliable authorities regarding the quality of education
or training offered by the institutions or programs they accredit.”
34 C.F.R. § 602.1(a); see also 34 C.F.R. § 602.10. These accrediting

App. 3
Commission is one of four “specialized commissions”
within SACS which “set educational standards and
make accreditation decisions.” Id. Paine College was
first accredited by a predecessor of the Commission in
1931 and has been continuously accredited since then.
To gain or maintain accreditation with SACS, an
institution must comply with the standards contained
in the Principles of Accreditation (“the Principles”),
which broadly set forth requirements in four areas: (1)
institutional mission, governance, and effectiveness;
(2) programs; (3) resources; and (4) institutional responsibility for Commission policies. As part of the
accreditation review, member institutions submit documentation demonstrating compliance with the Principles to a committee particular to each institution
that oversees the review process. The committee reviewing member compliance, a review committee, then
makes a determination regarding that institution’s
status. If a review committee finds that an institution
is not in compliance with the Principles, the review
committee makes a recommendation of action to the
Executive Council, which votes to pass that recommendation on to the full Board. The Board can then place
the institution on “Warning,” a sanction that places the
institution on a monitoring period that can last, at
most, two consecutive years. If the institution fails to
show compliance with the Principles after two years on
bodies rate both the educational success of institutions and certain business aspects, such as the school’s “fiscal and administrative capacity as appropriate to the specified scale of operations.”
20 U.S.C. § 1099b(a)(5)(E).

App. 4
Warning, the institution may be removed from membership. If the institution fails to show compliance but
shows good cause for why it is not in compliance after
the Warning period, the Board can place it on Probation. The maximum consecutive time that an institution may be on Probation is two years. As a result, if an
institution has been on Warning for two years followed
by Probation for two years, it must either demonstrate
full compliance with the Principles at the final review
of the review committee or be removed from the Commission’s membership.
Paine had serious financial problems beginning
around 2011. These issues culminated in 2014, when
Paine had a $10 million budget shortfall. On April 24,
2012, after adverse media attention regarding Paine’s
alleged financial mismanagement, the Commission’s
vice president requested that Paine prepare a report
documenting its compliance with the Principles’ requirements relating to financial stability and control
of resources. After a review of Paine’s report, the Board
voted to place Paine on Warning in June of 2012. A special committee, assigned specifically to track Paine’s financial progress, visited the school in 2013 to reevaluate the institution and informed Paine that it
needed to demonstrate compliance with the Principles
or face removal from membership.
The special committee visited Paine each year
from 2013 to 2016. After each visit, the special committee drafted a report and provided Paine with a copy of
the report. The Commission’s rules gave Paine the opportunity to correct any factual errors in the special

App. 5
committee report and provide written responses and
documents addressing the issues listed in the report to
the Commission. Each year, Paine provided such a response, including hundreds of pages of documents.
Each year the review committee found that Paine
failed to comply with the Principles. And each year, the
Executive Council and Board of Trustees agreed with
the review committee and adopted their recommendations concerning the finding of noncompliance. Paine
progressed from two years of Warning to two years on
Probation without being able to comply with the Principles.
In 2016, a special committee visited Paine from
March 29 through March 31, 2016. After the special
committee submitted its report, the review committee
conducted an interview with a Paine delegation to
make a final determination. The review committee
found Paine was still not in compliance with the Principles. The Executive Council and the Board affirmed
that determination. Since Paine had been on Probation
for the maximum time period and therefore could no
longer be continued on Probation, the Executive Council and the Board of Trustees unanimously voted to remove Paine from membership—in effect, revoking its
accreditation.
On July 7, 2016, Paine formally appealed the
Board’s decision revoking Paine’s accreditation. Commission appeals are governed by the Appeals Procedures of the College Delegate Assembly (the “Appeals
Procedures”) and by 20 U.S.C. § 1099b(a)(6). The Appeals Committee consists of twelve individuals elected

App. 6
by the College Delegate Assembly. The procedures provide that an appeal can be decided by a quorum of five
or more members of the Appeals Committee. The Chair
of the Board must fill vacancies on the Appeals Committee—for example, if a member has a conflict of interest or a quorum cannot be established—with
members appointed to the appeals committee for the
purpose of that appeal. The Appeals Procedures also
have specific rules about conflicts of interest. Among
other conflicts, the procedures state that anyone who
voted on the “accreditation status” of the institution “at
any time leading to the appealable decision” has a conflict.
Carol Luthman, an administrative employee of
SACS COC, carried out several tasks on behalf of the
Board relating to the appeal.2 Luthman performed an
initial conflict check and determined that five of the
twelve elected Appeals Committee members had a conflict. And although another member—Dr. Luckey—
participated in votes to place Paine on Warning in 2012
and 2013, Luthman ultimately concluded that he did
not have a conflict. Luthman also sent the emails
which invited two non-elected members to the Appeals

2

The record shows that Luthman served as the coordinator
for the appeals process compiled the administrative record for the
appeal, informed Paine when the rescheduled hearing would take
place, [provided Paine with a list of the members who would serve
on the appeals committee, invited the members of the committee
to serve, and trained the hearing officer and committee chair on
the relevant rules and procedures—all normal parts of her job description.

App. 7
Committee after the Chair of the Board confirmed
their appointment.
The Appeals Committee, after a hearing during
which Paine presented evidence of its improved financial state, unanimously affirmed the Board’s decision
to revoke Paine’s accreditation. A week later, Paine
filed this lawsuit, challenging the revocation of its accreditation. Paine asserted claims for violations of common law due process based on alleged irregularities in
Paine’s appeal process and other state law claims.
Following discovery, Paine filed for partial summary judgment and the Commission filed for summary
judgment. The district court granted the Commission’s
motion for summary judgment and denied Paine’s motion for partial summary judgment. In brief, the court
found that the review process was “fundamentally
fair.” The court also concluded that substantial evidence supported the Committee’s ruling, even allowing
for some evidence that pointed against it. And, regarding the arguable procedural violations that Paine challenged, the district court found they did not affect the
fundamental fairness of the process. This appeal followed.
II.

Standard of Review

“We review a district court’s grant of summary
judgment de novo, applying the same legal standards
as the district court, and viewing all facts and reasonable inferences therefrom in the light most favorable

App. 8
to the non-moving party.” Arrington v. Helms, 438 F.3d
1336, 1341 (11th Cir. 2006).
III.

Discussion

A threshold question to reviewing Paine’s challenge to the appeals procedure is whether this court
recognizes the legal right they claim: a common law
due process right. Our circuit, in the only reported case
on this issue, declined to decide whether such a right
existed. See Hiwassee Coll., Inc. v. S. Ass’n of Colls. &
Schs., 531 F.3d 1333, 1335 (11th Cir. 2008) (per curiam). Instead, the Hiwassee court borrowed the standard of review from a Sixth Circuit case3 that recognized
such a right and concluded that, even assuming such a
right existed, SACS complied with any such common
law due process requirements. See id. at 1335 & n.4
(“The procedural components of Hiwassee’s argument
fail to show a violation of common law due process, or
that SACS’s decision to terminate Hiwassee from
membership based on its continuous troubled financial
condition was arbitrary and capricious.”). We follow
suit today and hold, without deciding whether such a
right exists, that the process used to remove Paine’s
accreditation would not offend common law due process.

3

See Thomas M. Cooley Law Sch. v. Am. Bar Ass’n, 459 F.3d
705, 712 (6th Cir. 2006) (“This Court reviews only whether the
decision of an accrediting agency . . . is arbitrary and unreasonable or an abuse of discretion and whether the decision is based on
substantial evidence.”) (citations omitted).

App. 9
In reaching this conclusion, we apply the same
deferential standard the Hiwassee court utilized “and
review ‘only whether the decision of an accrediting
agency . . . is arbitrary and unreasonable or an abuse
of discretion and whether the decision is based on substantial evidence.’ ” Id. at 1335 n.4 (quoting Thomas M.
Cooley Law Sch. v. Am. Bar Ass’n, 459 F.3d 705, 712
(6th Cir. 2006)). As the Cooley court explained, the real
question, under this standard of review, is whether the
process and decision were fundamentally fair:
[G]reat deference should be afforded the substantive rules of these [accreditation] bodies
and courts should focus on whether an accrediting agency such as the ABA followed a fair
procedure in reaching its conclusions. We are
not free to conduct a de novo review or substitute our judgment for that of the ABA or its
Council. Rather, in analyzing whether the
ABA abused its discretion or reached a decision that was arbitrary or unreasonable, we
focus on whether the agency “conform[ed] its
actions to fundamental principles of fairness.”
Cooley, 459 F.3d at 713 (second alteration in original)
(quoting Med. Inst. of Minn. v. Nat’l Ass’n of Trade &
Tech. Schs., 817 F.2d 1310, 1314 (8th Cir. 1987)). Thus,
we examine whether the process was “arbitrary and
unreasonable or an abuse of discretion” and whether
the decision was made with “sufficient reasoning.” Id.
at 712, 715.

App. 10
A. Whether the Commission’s Process Was Arbitrary and Unreasonable or an Abuse of Discretion
A review of the record shows that due process is
more than satisfied when looking at the procedures
used to revoke Paine’s accreditation. The Commission
has detailed rules and procedures for evaluating an institution’s accreditation status. The review committees
are comprised of professionals and peers who evaluate
every document the institution provides. The institution is measured against objective standards detailed
in the Principles. Moreover, the review committee’s initial recommendation is further reviewed by two bodies: the Executive Council and the Board of Trustees,
both of which are comprised of members elected from
the body of member institutions as a whole. The appeals process itself has an entirely separate hearing, a
new set of judges who have served in the academic accreditation field before, and gives yet another opportunity for an institution to present its evidence and
argument. These procedures are fundamentally fair.
Another way to put it: “The Commission’s procedures
treat applicants for accreditation like capable professionals seeking the evaluation and recognition of their
peers: we do not think that due process requires any
more.” Marlboro Corp. v. Ass’n of Indep. Colls. & Schs.,
Inc., 556 F.2d 78, 82 (1st Cir. 1977).
Paine nonetheless contends that two minor errors
in the selection of the appeals committee deprived the
process of fundamental fairness such that due process
was offended. First, says Paine, one of the Appeals

App. 11
Committee members—Dr. Luckey—should not have
served on Paine’s appeal because he had a conflict of
interest from having voted to place Paine on Warning
a few years prior. Second, Paine argues the Committee
jumped the gun, so to speak, in inviting two unelected
members—Drs. Martin and Early—to serve on the Appeals Committee before all elected members had been
contacted to determine if a quorum existed. For the
purposes of this appeal, we assume that these were errors under the Appeals Procedures. Nevertheless, we
do not find that Paine’s due process rights were violated.4
First, a conflict of interest is not a per se due process violation. We have held, in the context of a due
process claim regarding a government decision to deny
benefits, that “the existence of a conflict of interest
should merely be a factor for the district court to take
into account when determining whether an administrator’s decision was arbitrary and capricious.” Doyle v.
Liberty Life Assurance Co. of Bos., 542 F.3d 1352, 1360
(11th Cir. 2008). And the Supreme Court has noted
that “[p]ersonal bias or prejudice” is not enough, on its
own, to trigger the common law concept of a violation
of due process. Caperton v. A.T. Massey Coal Co., 556
U.S. 868, 876-77 (2009). Thus, even an admitted
4

We note that Cooley held similar allegations of procedural
violations did not rise to a denial of due process: “The other errors
alleged by Cooley—a conflict of interest by one Committee member and the use of an incorrect fact sheet during one of the hearings—do not amount to a due process violation.” Cooley, 459 F.3d
at 715.

App. 12
conflict of interest does not automatically invalidate a
decision.5
The same is true for the appointment of the two
unelected members of the Appeals Committee.6 Even if
5

Paine relies on a Supreme Court case that interpreted constitutional due process requirements in the death penalty context
to argue that a conflict of interest is per se error. In Williams v.
Pennsylvania, the Supreme Court held that “under the Due Process Clause there is an impermissible risk of actual bias when a
judge earlier had significant, personal involvement as a prosecutor in a critical decision regarding the defendant’s case.” 136
S. Ct. 1899, 1905 (2016) (vacating denial of postconviction relief
because state justice who participated in decision to deny relief
had been the district attorney who approved decision to seek the
death penalty in defendant’s case). The Court reasoned that “an
unconstitutional potential for bias exists when the same person
serves as both accuser and adjudicator in a case.” Id. at 1905. This
case does not carry Paine’s argument. Not only is the context radically different, but the Court in Williams was also considering
the “potential for [actual] bias” in the determination of the adverse outcome, not merely a conflict of interest. Here, Paine has
not shown any potential for actual bias.
6
As noted earlier, we are assuming for the purposes of this
appeal that the appointments of the two unelected members of
the Appeals Committee were erroneous. However, we note that
the record revealed that the Appeals Procedures state there must
be a “minimum” of five members to constitute a quorum. If a
quorum cannot be reached from the 12 elected members, the
Chair of the Board is allowed to appoint other qualified academic
employees from member institutions. Of the 12 elected members,
five of them had conflicts of interest. Another had moved out of
the country and retired. Another was unable to make the committee because his of CPA obligations and an upcoming tax filing
deadline. Another could not serve because of a board meeting.
That left only four elected members who could serve. It is a practice of the Commission to have available at least six members who
can serve in case one gets sick last minute, and this reasonable
precaution is not expressly prohibited by any of the rules. Thus,

App. 13
the rules did not permit these appointments, it is hard
to see how Paine was harmed at all, let alone to such
an extent that due process was violated. Paine makes
a passing argument that one of the unelected members
influenced the Appeals Committee’s choice to include
certain language in the letter sent to Paine after the
hearing. But even if this committee member advocated
against Paine’s interest, that advocacy is insufficient
to show a violation of due process because (a) a quorum
requires five members, so even if one member of the
six-member committee was extraneous, at least one
new member was required, (b) the decision was unanimous, meaning regardless of which of the two unelected members had served, the vote would have been
in favor of affirming the removal of Paine’s accreditation, and (c) Paine put forward no evidence to show
that any elected members were actually available to
serve in either of the unelected member’s places.
In short, minor departures from an outlined procedure do not per se cause injury and therefore would
not amount to a violation of procedural due process.
Given the lengthy process the Committee utilized before the appeal even happened and given that Paine
has not produced any evidence to suggest these errors
had an effect on the ultimate decision, Paine has not
demonstrated that it was denied due process.

the Chair of the Board was permitted to appoint other members
to the committee to ensure a quorum, which she did. In light of
these circumstances, it is doubtful that the invitation to these two
members was, in fact, a procedural error.

App. 14
B. Whether the Commission’s Decision was Based
on Substantial Evidence
This prong of the due process test requires little
discussion. Paine argues that the Commission’s decision to allow this particular Appeals Committee to
hear Paine’s appeal was not based on substantial evidence. But Paine misses the thrust of the analysis: the
question is whether the Commission’s ultimate decision was based on substantial evidence. See Cooley, 459
F.3d at 712, 715. And to that question, the record shows
that there was more than substantial evidence, over a
period of four years, to make the decision that the
Committee made.
IV.

Conclusion

Because Paine has not shown that any technical
errors in the appeals process rendered the loss of accreditation procedure as a whole arbitrary and unreasonable or an abuse of discretion, and because the
Committee’s decision to remove Paine from SACS
accreditation was based on substantial evidence, we
affirm the grant of summary judgment in the Committee’s favor.7
AFFIRMED.
7
Paine also argues that the district court erroneously required Paine to demonstrate an injury in addition to the injury of
the alleged due process violations. Because we hold that there was
no due process violation, thus necessarily holding there was no
injury at all, we need not reach this additional argument.

App. 15
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
THE PAINE COLLEGE,
Plaintiff,
v.
THE SOUTHERN
ASSOCIATION OF
COLLEGES AND
SCHOOLS COMMISSION
ON COLLEGES, INC.,

CIVIL ACTION FILE
NO. 1:16-CV-3503-TWT

Defendant.
ORDER
(Filed Feb. 8, 2019)
This action arises out of Paine College’s loss of accreditation. It is before the Court on the Plaintiff The
Paine College’s Motion to Alter or Amend Clerk’s Judgment Pursuant to Federal Rule of Civil Procedure 59(e)
and Motion to Alter or Amend or in the Alternative for
Reconsideration of Portions of the Court’s Order Pursuant to Federal Rule of Civil Procedure 59(e) [Doc.
114]. For the reasons set forth below, the Plaintiff The
Paine College’s Motion to Alter or Amend Clerk’s Judgment Pursuant to Federal Rule of Civil Procedure
59(e) and Motion to Alter or Amend or in the Alternative for Reconsideration of Portions of the Court’s Order Pursuant to Federal Rule of Civil Procedure 59(e)
[Doc. 114] is GRANTED in part and DENIED in part.

App. 16
On October 11, 2018, this Court granted the Defendant The Southern Association of Colleges and
Schools Commission on Colleges, Inc.’s Motion for
Summary Judgment and denied the Plaintiff The
Paine College’s Motion for Partial Summary Judgment. In the Court’s Opinion and Order, the Court
noted that neither party moved for summary judgment
as to Count VI of the Amended Complaint, and declined to address the issue of attorneys’ fees.1 In Count
VI of the Amended Complaint, Paine College seeks declaratory relief as to the issue of attorneys’ fees. Specifically, Paine College asks for a declaration that a
Southern Association rule regarding attorneys’ fees is
unenforceable.2 This rule requires an institution that
loses a legal action regarding an accreditation decision
to pay the Southern Association’s attorneys’ fees.3
After this Court issued its Opinion and Order, the
Clerk of Court entered judgment in favor of the Southern Association and against the Paine College, and dismissed this action.4 Paine College now moves for this
Court to alter or amend the Clerk of Court’s judgment,
and for this Court to either alter or amend its Opinion
and Order, or alternatively, for the Court to reconsider
portions of this previous Opinion and Order.
First, the Court agrees with Paine College that the
Clerk of Court should not have entered final judgment
1
2
3
4

Opinion and Order [Doc. 109], at 64 n.237.
Am. Compl. ¶ 324.
Id. ¶ 319.
See [Doc. 110]; [Doc. 111].

App. 17
after the Court’s summary judgment ruling. In its
Opinion and Order, the Court expressly declined to address Count VI, Paine College’s request for a declaratory judgment as to attorneys’ fees, because neither
party moved for summary judgment as to this claim.5
An order such as this, which adjudicates fewer than all
the claims in an action, is not a final judgment.6 A final
judgment allowing an appeal on fewer than all claims
or parties can only be entered if the district court certifies as “final” a judgment under Federal Rule of Civil
Procedure 54(b).7 The Court did not issue such a certification here. Therefore, the Clerk of Court erroneously
entered final judgment despite the pendency of Count
VI of the Amended Complaint.
The parties next dispute whether the Preliminary
Injunction remained in effect after the Court’s summary judgment order. Paine College argues that the
Preliminary Injunction remains in full force and effect
because the Court did not order it dissolved or terminated, and asserts that the Southern Association violated the injunction by informing the Department of
Education that the injunction had been dissolved.8 The
Southern Association argues that the entry of judgment “on all federal claims” in its favor “means that the
injunction is no longer in place.”9 The Court disagrees.
5

Opinion and Order [Doc. 109], at 64 n.237.8
6
Lloyd Noland Found., Inc. v. Tenet Health Care Corp., 483
F.3d 773, 777 (11th Cir. 2007).
7
d.
8
Pl.’s Mot. for Reconsideration, at 12.
9
Def.’s Br. in Opp’n to Pl.s’ Mot. for Reconsideration, at 10.

App. 18
The Court’s grant of summary judgment in favor of the
Southern Association as to all claims but Count VI did
not implicitly dissolve the Preliminary Injunction, and
the parties cannot “infer” that the ruling had such an
effect. The Consent Order Granting Preliminary Injunction provides that “[t]his Order shall remain in full
force and effect and binding upon the parties, pending
further Order of this Court.”10 Absent an order by this
Court terminating or dissolving the Preliminary Injunction, it remains in full force and effect and binding
upon both parties. Therefore, the Court’s Opinion and
Order granting summary judgment to the Southern
Association as to all of the claims except Count VI did
not dissolve, terminate, or otherwise modify the Preliminary Injunction. The Preliminary Injunction is still
in full force and effect.
However, the Court nonetheless concludes that
Count VI of the Amended Complaint should be dismissed due to a lack of subject-matter jurisdiction.
Federal district courts have limited jurisdiction. “A federal court may raise the issue of lack of subject-matter
jurisdiction on its own initiative at any stage of litigation.”11 Relevant here, district courts have jurisdiction
over civil actions arising under federal law.12 A “necessary corollary to the concept that a federal court is
powerless to act without jurisdiction is the equally unremarkable principle that a court should inquire into
10
11
12

[Doc. 5], at 3.
Cooksey v. Waters, 435 F. App’x 881, 884 (11th Cir. 2011).
28 U.S.C. § 1331.

App. 19
whether it has subject matter jurisdiction at the earliest possible stage in the proceedings.”13 Thus, “it is well
settled that a federal court is obligated to inquire into
subject matter jurisdiction sua sponte whenever it may
be lacking.”14 Generally, a case arises under federal law
only if federal law creates the cause of action.15
The Southern Association argues that Count VI
arises under state law, and that the Court should decline to continue exercising supplemental jurisdiction
over this claim due to the dismissal of Paine College’s
federal claims. Paine College argues in turn that the
Court “arguably” has federal question jurisdiction over
Count VI under 20 U.S.C. § 1099b(f ) because Count VI
“is based on due process issues under the Higher Education Act.”16 However, nowhere in Count VI does Paine
College allege that this attorneys’ fees provision denies
it due process in violation of the Higher Education Act.
Instead, Paine College makes general allegations that
this provision “discriminates against small, private, religiously sponsored colleges and HBCUs,”17 that it “creates a draconian, unreasonable and unfair burden for
this class of colleges which has the effect of making it
difficult, if not impossible, for these colleges to litigate
and enforce their state and federal rights,”18 and that
13

University of South Alabama v. American Tobacco Co., 168
F.3d 405, 410 (11th Cir. 1999).
14
Id.
15
Diaz v. Sheppard, 85 F.3d 1502, 1505 (11th Cir. 1996).
16
Pl.’s Reply Br., at 3 n.2.
17
Am. Compl. ¶ 320.
18
Id. ¶ 321.

App. 20
“such discrimination . . . shows an unlawful pattern of
conduct by SACSCOC which it uses to rid itself of
small, private, religiously sponsored colleges and
HBCU’s such as Paine College.”19 Paine College asserts
no more than vague allegations of discrimination and
a general reference to “federal rights.” These allegations fail to establish that Count VI arises under the
Higher Education Act or any other federal law. Therefore, the Court concludes that it lacks subject-matter
jurisdiction over Count VI because that claim does not
arise under federal law. Furthermore, the Court declines to exercise supplemental jurisdiction over that
claim. A district court “may decline to exercise supplemental jurisdiction over a state law claim if ‘the district court has dismissed all claims over which it has
original jurisdiction.’ ”20 Such a decision is within the
discretion of the district court.21 The Court declines to
continue exercising supplemental jurisdiction over
Count VI due to the dismissal of Paine College’s federal
claims on the merits. Therefore, Count VI is dismissed
without prejudice.
Finally, Paine College moves to “alter or amend”
the Court’s summary judgment order, or, in the alternative, reconsider its ruling.22 Rule 59(e) of the Federal
Rules of Civil Procedure authorizes district courts

19

Id. ¶ 323.
Cooksey, 435 F. App’x at 884-85.
21
Hardy v. Birmingham Bd. of Educ., 954 F.2d 1546, 1550
(11th Cir. 1992).
22
Pl.s’ Mot. for Reconsideration, at 14.
20

App. 21
upon motion to alter or amend a judgment.23 “The decision to alter or amend judgment is committed to the
sound discretion of the district judge and will not be
overturned on appeal absent an abuse of discretion.”24
The Federal Rules of Civil Procedure do not specifically
authorize motions for reconsideration. Nevertheless,
such motions are common in practice. Local Rule 7.2
provides that motions for reconsideration are not to be
filed “as a matter of routine practice,” but only when
“absolutely necessary.”25 A party may move for reconsideration only when one of the following has occurred:
“an intervening change in controlling law, the availability of new evidence, [or] the need to correct clear error or prevent manifest injustice.”26 Further, a party
“may not employ a motion for reconsideration as a vehicle to present new arguments or evidence that
should have been raised earlier, introduce novel legal
theories, or repackage familiar arguments to test
whether the Court will change its mind.”27 Paine
23

See FED. R. CIV. PROC. 59(e).
Am. Home Assurance Co. v. Glenn Estess & Assocs., 763
F.2d 1237, 1238-39 (11th Cir. 1985) (citing Commodity Futures
Trading Comm’n v. American Commodity Group Corp., 753 F.2d
862, 866 (11th Cir. 1984)).
25
N.D. Ga. Local R. 7.2E.
26
Godby v. Electrolux Corp., No. 1:93-CV-0353-ODE, 1994
WL 470220, at *1 (N.D. Ga. May 25, 1994).
27
Brogdon v. National Healthcare Corp., 103 F. Supp. 2d
1322, 1338 (N.D. Ga. 2000); see also Godby, 1994 WL 470220, at
*1 (“A motion for reconsideration should not be used to reiterate
arguments that have previously been made . . . ‘[It is an improper
use of ] the motion to reconsider to ask the Court to rethink what
the Court [has] already thought through-rightly or wrongly.’ ”)
24

App. 22
College argues that the Court erroneously concluded
that Dr. Luckey’s purported conflict of interest caused
it no injury.28 However, the Court rejected this exact
argument in its Opinion and Order, and Paine College
fails to show that this conclusion was clear error.
Therefore, Paine College’s motion to reconsider the
Court’s summary judgment order is denied.
For the reasons stated above, the Plaintiff The
Paine College’s Motion to Alter or Amend Clerk’s Judgment Pursuant to Federal Rule of Civil Procedure 59(e)
and Motion to Alter or Amend or in the Alternative for
Reconsideration of Portions of the Court’s Order Pursuant to Federal Rule of Civil Procedure 59(e) [Doc.
114] is GRANTED in part and DENIED in part. Count
VI of the Amended Complaint is DISMISSED without
prejudice. The Court directs the Clerk of Court to
reenter final judgment in favor of the Defendant and
against the Plaintiff. Paine College has 30 days from
entry of final judgment to file a Notice of Appeal. The
Court orders that the Preliminary Injunction [Doc. 5]
remain in effect during those 30 days, and if Paine College appeals, during the pendency of that appeal.

(quoting Above the Belt, Inc. v. Mel Bohannan Roofing, Inc., 99
F.R.D. 99, 101 (E.D. Va.1983)) (alterations in original); In re
Hollowell, 242 B.R. 541, 542-43 (Bankr. N.D. Ga. 1999) (“Motions
for reconsideration should not be used to relitigate issues already
decided or as a substitute for appeal . . . Such motions also should
not be used to raise arguments which were or could have been
raised before judgment was issued.”).
28
Pl.s’ Mot. for Reconsideration, at 14.

App. 23
SO ORDERED, this 8 day of February, 2019.
/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

App. 24
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
THE PAINE COLLEGE,
Plaintiff,
vs.

CIVIL ACTION FILE

THE SOUTHERN
ASSOCIATION OF
COLLEGES AND
SCHOOLS COMMISSION
ON COLLEGES, INC.
Defendant

NO. 1:16-cv-3503-TWT

JUDGMENT
(Filed Feb. 8, 2019)
This action having come before the court, Honorable Thomas W. Thrash, United States District Chief
Judge, for consideration of Plaintiff ’s Motion to Alter
or Amend Clerk’s Judgment Pursuant to Federal Rule
of Civil Procedure 59(e) and Motion to Alter or Amend
or in the Alternative for Reconsideration of Portions of
the Court’s Order Pursuant to Federal Rule of Civil
Procedure 59(e), and the court having GRANTED-INPART and DENIED-IN PART said motion, it is
Ordered and Adjudged that the Count VI of the
Amended Complaint is DISMISSED without prejudice. The Plaintiff takes nothing; the Defendant recover its costs of this action, and the action be, and the
same hereby is, dismissed.

App. 25
Dated at Atlanta, Georgia, this 8th day of February, 2019.
JAMES N. HATTEN
CLERK OF COURT
By: s/ B. Walker
Deputy Clerk
Prepared, Filed, and Entered
in the Clerk’s Office
February 8, 2019
James N. Hatten
Clerk of Court
By: s/ B. Walker
Deputy Clerk

App. 26
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
THE PAINE COLLEGE,
Plaintiff,
v.
The SOUTHERN
CIVIL ACTION FILE
ASSOCIATION OF
NO. 1:16-CV-3503-TWT
COLLEGES AND
SCHOOLS COMMISSION
ON COLLEGES, INC.,
Defendant.
OPINION AND ORDER
(Filed Oct. 12, 2018)
This action arises out of Paine College’s loss of accreditation. It is before the Court on the Defendant The
Southern Association of Colleges and Schools Commission on Colleges, Inc.’s Motion for Summary Judgment
[Doc. 70] and the Plaintiff The Paine College’s Motion
for Partial Summary Judgment [Doc. 71]. For the reasons set forth below, the Defendant The Southern
Association of Colleges and Schools Commission on
Colleges, Inc.’s Motion for Summary Judgment [Doc.
70] is GRANTED, and the Plaintiff The Paine College’s
Motion for Partial Summary Judgment [Doc. 71] is DENIED.

App. 27
I.

Background

The Plaintiff The Paine College is a private, coeducational, liberal arts college located in Augusta,
Georgia.1 Paine College is a historically black college
whose predecessor, the Paine Institute, was established in 1882.2 It is now one of the oldest historically
black colleges and universities in the country.3 The
Defendant The Southern Association of Colleges and
Schools Commission on Colleges, Inc. (the “Southern
Association”) is a private, nonprofit, voluntary accrediting organization that was founded in Atlanta, Georgia in 1895.4 The Southern Association accredits
approximately 800 higher education institutions, including a number of historically black colleges and
universities.5 Paine College was first accredited by a
predecessor of the Southern Association in 1931, and
has been continuously accredited since then.6
The Southern Association’s membership is composed of public and non-public degree-granting institutions of higher education. Its day-to-day operations
are handled by a staff of approximately 40 individuals.7 Each Southern Association member institution is
1

Def.’s Statement of Material Facts ¶ 1 [Doc. 70-2].
Pl.’s Statement of Material Facts ¶ 1 [Doc. 71-2].
3
Id. ¶ 4.
4
Def.’s Statement of Material Facts ¶ 2.
5
Id. ¶ 3.
6
Id. ¶ 4. Paine’s accreditation has remained in place since
September 19, 2016 pursuant to this Court’s Consent Order. See
[Doc. 5].
7
Def.’s Statement of Material Facts ¶ 5.
2

App. 28
allowed to designate one voting member to the Southern Association College Delegate Assembly. The College Delegate Assembly elects 77 members to serve on
the Southern Association Board of Trustees.8 The
Board of Trustees includes 66 representatives from
member institutions, along with 11 public representatives who are not employed by a member institution.9
These 11 public representatives come from each state
in the Southern Association’s geographic region.10 The
Board of Trustees is responsible for guiding the organization’s work and implementing the accreditation process.11
The Southern Association Executive Council is a
subset of the Board of Trustees.12 It consists of the
Board Chair, a public member, and a representative
from each of the 11 southern states in the Southern
Association’s geographic region.13 The Executive
Council has a number of responsibilities, including reviewing and approving recommendations from the
Committee on Compliance and Reports (the “C & R
Committee”) prior to the submission of those reports to
the full Board of Trustees.14 The primary responsibility of C & R Committees is to review and recommend

8

Id. ¶ 7.
Id. ¶ 8.
10
Id.
11
Id. ¶ 9.
12
Id. ¶ 10.
13
Id.
14
Id. ¶ 11.
9

App. 29
action on the accreditation status of member institutions.15 These recommendations are then reviewed and
approved by the Executive Council, and then voted on
by the full Board of Trustees.16 Every Board of Trustees
member, other than those members serving on the Executive Council, is assigned to a C & R Committee.
Each C & R Committee can contain approximately ten
to fifteen Board members.17 This means that there are
several different C & R Committees each year.18 Every
year, each of the institutions that are either applying
for accreditation, up for reaffirmation of accreditation,
seeking approval of a substantive change, under review, or have been placed on sanctions are divided
among the C & R Committees prior to action by the full
Board.19
The Southern Association bases its accreditation
decisions on requirements provided in the Principles of
Accreditation: Foundations for Quality Enhancement
(the “Principles”).20 Members are required to remain in
compliance with the Principles at every stage of institutional evaluation to be accredited by the Southern
Association, or face sanctions.21 These stages of institutional evaluation include the initial application
stage, the reaffirmation stage, the substantive change
15
16
17
18
19
20
21

Id. ¶ 14.
Id.
Id. ¶ 13.
Id.
Id. ¶ 15.
Id. ¶ 36.
Id. ¶ 37.

App. 30
stage, or an evaluation triggered by the receipt of a
complaint or unsolicited information.22 The Principles
consist of “Core Requirements,” “Comprehensive
Standards,” and “Federal Requirements.”23 The Core
Requirements are basic, broad, foundational requirements that an institution must meet to be accredited.24
The Comprehensive Standards, in turn, provide requirements in four specific areas: (1) institutional mission, governance, and effectiveness, (2) programs, (3)
resources, and (4) institutional responsibility for the
Southern Association policies.25 The Comprehensive
Standards are more specific to the operations of the
institutions and represent good practices in higher education.26 Under the Principles, institutions must
demonstrate compliance with both the Core Requirements and the Comprehensive Standards.27 Compliance with just the Core Requirements is not enough to
warrant accreditation or reaffirmation of accreditation, and if an institution is judged to be significantly
out of compliance with any of the Comprehensive
Standards, the Board of Trustees can deny reaffirmation and place the institution on sanction.28 Finally,
with the Federal Requirements, the Southern Association reviews an institution with criteria outlined in
22
23
24
25
26
27
28

Id.
Id. ¶ 38.
Id. ¶ 39.
Id. ¶ 41.
Id. ¶ 42.
Id. ¶¶ 40, 43.
Id. ¶¶ 20, 40.

App. 31
federal regulations promulgated by the U.S. Department of Education. The Principles require an institution to document compliance with the Federal
Requirements.29
Paine College’s membership in the Southern Association was last reaffirmed in July 2011.30 In April
2012, the Augusta Chronicle published articles detailing financial mismanagement at Paine.31 These articles explained that Paine lost its eligibility for a
student federal loan program, that Paine had not returned unused federal financial aid for students who
had withdrawn from the school, that numerous financial aid checks to students bounced, and that Paine
lacked adequate policies and procedures to administer
its Federal Perkins Loan Program.32 These details
were based upon a review of Paine’s audited financial
statements from the year ending June 30, 2011.33 The
Augusta Chronicle continued to publish articles describing a bleak financial situation at Paine.34
The Southern Association became aware of these
articles, and pursuant to its policy regarding unsolicited information, reviewed the information in the articles.35 On April 24, 2012, the Southern Association
29
30
31
32
33
34
35

Id. ¶ 46.
Id. ¶ 47.
Id. ¶ 51.
Id. ¶ 53.
Id. ¶ 52.
Id. ¶¶ 54-56.
Id. ¶¶ 51, 57.

App. 32
requested that Paine respond to the allegations in the
articles, including providing any documentation relevant to Paine’s compliance with the Principles.36 In
May 2012, Paine submitted a written response to the
Southern Association and provided documentation
concerning Paine’s financial condition.37 After reviewing these submissions, the Southern Association Board
of Trustees determined that the articles’ allegations
were significantly documented.38 It concluded that
Paine failed to comply with six of the Principles relating to financial stability and management, including:
(1) Core Requirement 2.11.1, Financial Resources;
(2) Comprehensive Standard 3.10.1, Financial Stability; (3) Comprehensive Standard 3.2.8, Qualified Administrative/Academic Officers; (4) Comprehensive
Standard 3.10.3, Control of Finances; (5) Comprehensive Standard 3.10.4, Control of Sponsored Research/
External Funds; and (6) Federal Requirement 4.7,
Title IV Program Responsibilities.39 Due to this noncompliance with the Principles, the Board of Trustees
placed Paine on Warning status and appointed a Special Committee to visit the school in 2013 to reevaluate
its compliance with the Principles.40 The Southern
Association also informed Paine that, pursuant to federal regulations and the Southern Association policy, it

36
37
38
39
40

Id. ¶ 57.
Id. ¶ 58.
Id. ¶ 59.
Id. ¶¶ 59-60.
Id. ¶ 61.

App. 33
must demonstrate compliance with the Principles
within four years, or face removal from membership.41
A Southern Association Special Committee visited
Paine each year from 2013 to 2016.42 After each visit,
the Special Committee drafted a report and provided
Paine with a copy of the report.43 Under the Southern
Association procedures, Paine could correct any factual
errors in the Special Committee Report, and provide
written responses and documentation addressing the
issues listed in the report.44 Paine provided such a response each of these years and also submitted hundreds of pages of documentation concerning its
compliance with the Principles.45 The Special Committee Reports, Paine’s responses and documentation, and
staff memoranda were compiled and then submitted to
the C & R Committee each year.46 Each year the C & R
Committee found that Paine failed to comply with the
Principles.47 And, each year, the Executive Council and
Board of Trustees agreed with the C & R Committees
and adopted their recommendations concerning the
41

Id.
Id. ¶ 65.
43
Id. ¶ 66.
44
Id. ¶ 67.
45
Id. ¶ 68.
46
Id. ¶ 69.
47
Id. ¶ 72. Each of these years, the C & R Committee found
that Paine failed to comply with a variety of different requirements of the Principles. See id. ¶ 73 (listing the Core Requirements, Comprehensive Standards, and Federal requirements
that Paine was deemed to have been in noncompliance with during these years).
42

App. 34
finding of noncompliance.48 In 2013, the Board of
Trustees continued Paine on Warning.49 The Southern
Association rules only allow an institution to be on
Warning status for two years. In 2014 and 2015, the
Board of Trustees found good cause to continue Paine
on Probation.50
However, after the Special Committee’s review of
Paine in 2016, the Southern Association could no
longer continue Paine on Probation.51 The Southern
Association rules only allow a member institution to be
on Probation status for two years. The rules dictate
that at this point the Board of Trustees either must
determine that Paine was in compliance with the Principles, or remove Paine from membership.52 Once
again, a Special Committee visited Paine from March
29-31, 2016.53 After the Special Committee submitted
its report, the C & R Committee recommended a finding that Paine was not in compliance with the Principles.54 The Board of Trustees determined that Paine
failed to comply with three Principles: (1) Core Requirement 2.11.1 (Financial Resources); (2) Comprehensive Standard 3.10.1 (Financial Stability); and
Comprehensive Standard 3.10.4 (Control of Sponsored

48
49
50
51
52
53
54

Id. ¶ 74.
Id. ¶ 75.
Id.
Id. ¶ 76.
Id.
Id. ¶ 78.
Id. ¶¶ 80, 82, 84.

App. 35
Research/External Funds).55 Since Paine could no
longer be continued on Probation, the Executive Council and the Board of Trustees unanimously voted to remove Paine from membership.56
On July 7, 2016, Paine formally appealed the
Board of Trustees’s decision revoking Paine’s accreditation.57 The Southern Association rules allow an institution that has been removed from membership to
appeal that decision.58 These appeals are governed by
the Appeals Procedures of the College Delegate Assembly (the “Appeals Procedures”).59 Generally, institutions may not submit new evidence on appeal.60
However, when an institution has been removed for
financial reasons, the Appeals Procedures allow an institution to submit “new and verifiable” financial information as a part of its brief.61 The Appeals Committee
consists of 12 individuals elected by the College Delegate Assembly.62 These individuals must have previously served on the Board of Trustees.63 The Appeals
Procedures provide that an appeal can be decided by
a quorum of five or more members of the Appeals

55
56
57
58
59
60
61
62
63

Id. ¶ 83.
Id.
Id. ¶ 85.
Id. ¶ 28.
Id.
Id. ¶ 29.
Id.
Id. ¶ 30.
Id.

App. 36
Committee.64 The Chair of the Board of Trustees must
fill vacancies – for example, if a member has a conflict
of interest – on the Appeals Committee when it is necessary to obtain a quorum.65 The Appeals Procedures
provide that appeals hearings for actions taken in
June are to be held in the third week of August, with
the institution’s brief due at least 14 days in advance.66
The Appeals Procedures provide only two grounds for
appealing a decision of the Board. First, the Appeals
Committee can overturn the Board’s decision to remove an institution from membership if it determines
that the decision was arbitrary, that is, was unreasonable and not based on, or consistent with, the Principles or other policies of the Southern Association.67
Second, the Appeals Committee can remand if the
Board failed to follow its procedures and that this failure was significant in leading to the decision.68
Pursuant to the Appeals Procedures, the appeals
hearing for Paine was set for the third week of August,
with the brief due two weeks before that.69 However,
Paine requested that the hearing be postponed to the
week of September 12, 2016.70 The Southern Association granted this request.71 The Southern Association
64
65
66
67
68
69
70
71

Id. ¶ 31.
Id. ¶ 32.
Id. ¶ 33.
Id.
Id.
Id. ¶ 103.
Id. ¶ 104.
Id.

App. 37
also extended the due date for Paine’s brief to August
8, 2016, although Paine did not specifically request
an extension of the briefing deadline.72 The Southern
Association appointed Cynthia Escamilla, the Vice
President and General Counsel at the University of
the Incarnate Word, as the Hearing Officer for this appeal.73 On September 12, 2016, the appeals hearing
was conducted.74 The Appeals Committee ultimately
affirmed the decision of the Board of Trustees revoking
Paine’s accreditation.75
On September 19, 2016, Paine filed this lawsuit.
In its First Amended Verified Complaint, Paine asserts
claims for: Violation of Common Law Due Process
(Failure to Provide Fair Adjudicative Process); Violation of Common Law Due Process (the Southern Association’s Procedures are Arbitrary and Unreasonable);
Violation of Common Law Due Process (the Southern
Association’s Decision was Unsupported by Substantial Evidence); Breach of Contract; Violation of the
Higher Education Act of 1965, Declaratory Relief as to
Attorneys’ Fees; and Violation of the Georgia NonProfit Corporation Code. Now, Paine moves for partial
summary judgment, and the Southern Association
moves for summary judgment.

72
73
74
75

Id. ¶ 105.
Id. ¶ 108.
Id. ¶ 119.
Id. ¶ 122.

App. 38
II.

Legal Standard

Summary judgment is appropriate only when the
pleadings, depositions, and affidavits submitted by the
parties show no genuine issue of material fact exists
and that the movant is entitled to judgment as a matter of law.76 The court should view the evidence and any
inferences that may be drawn in the light most favorable to the nonmovant.77 The party seeking summary
judgment must first identify grounds to show the absence of a genuine issue of material fact.78 The burden
then shifts to the non-movant, who must go beyond the
pleadings and present affirmative evidence to show
that a genuine issue of material fact exists.79 “A mere
‘scintilla’ of evidence supporting the opposing party’s
position will not suffice; there must be a sufficient
showing that the jury could reasonably find for that
party.”80
III.

Discussion

A. Higher Education Act
First, the Southern Association moves for summary judgment as to Count IV, Paine’s claim under the
Higher Education Act of 1965 (the “Higher Education
Act”). In Count V of the First Amended Verified
76
77
78
79
80

FED. R. CIV. P. 56(a).
Adickes v. S.H. Kress & Co., 398 U.S. 144, 158-59 (1970).
Celotex Corp. v. Catrett, 477 U.S. 317, 323-24 (1986).
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 257 (1986).
Walker v. Darby, 911 F.2d 1573, 1577 (11th Cir. 1990).

App. 39
Complaint (the “Complaint”), Paine argues that the
Southern Association violated various provisions of the
Higher Education Act. The Southern Association argues that this claim fails as a matter of law because
there is no private right of action under the Higher Education Act. The Court agrees. The Eleventh Circuit
has stated that it is “well-established precedent” that
there is no implied private right of action under the
Higher Education Act.81 In McCulloch v. PNC Bank
Inc., the Eleventh Circuit, concluding that a private
cause of action does not exist under the Higher Education Act, noted that “every court to consider the issue
in the last twenty-five years has determined that there
is no express or implied private right of action to enforce any of the HEA’s provisions.”82 Paine acknowledges this precedent. Instead, Paine argues that,
although no private right of action previously existed
under the Higher Education Act, Congress’s amendments to the Higher Education Act in 2008 created a
private right of action.83 According to Paine, Congress
amended the Higher Education Act in response to the
Eleventh Circuit’s decision in Hiwassee College with
the intention of creating a private right of action.84
However, the Court concludes that no private right
of action exists under the Higher Education Act, even
81

Hiwassee Coll., Inc. v. S. Ass’n of Colls. & Schs., 531 F.3d
1333, 1335 (11th Cir. 2008).
82
McCulloch v. PNC Bank Inc., 298 F.3d 1217, 1221 (11th
Cir. 2002).
83
Pl.’s Br. in Opp’n to Def.’s Mot. for Summ. J., at 4-9.
84
Id.

App. 40
despite these amendments. The Eleventh Circuit,
along with numerous other courts, has consistently
held over the course of many years that the Higher Education Act provides no private right of action.85 The
amendments cited by Paine do nothing to change the
reasoning that led these courts to conclude that there
is no private right of action. In Hiwassee College, the
Eleventh Circuit rejected the plaintiff ’s claims under
the Higher Education Act, noting that “even if the
party seeking a private right of action under the HEA
was deemed to be of a class that the HEA was intended
to protect, the second and most important prong of the
Cort v. Ash analysis would still bar the finding of an
implied private right of action.”86 This inquiry asks
whether there is any indication of Congress’s intent to
create a private right of action.87
Importantly, nothing in the amendments to the
Higher Education Act indicates that Congress intended to create a private right of action. Paine has
not highlighted any explicit or implicit indication that
Congress had such an intent. This factor, which the
Eleventh Circuit previously noted was the most determinative factor in rejecting claims under the Higher
Education Act, weighs strongly against recognizing a
private cause of action in these amendments. Paine
must show that there was some indication that
85

See Hiwassee College, Inc., 531 F.3d at 1335; McCulloch,
298 F.3d at 1220-25.
86
Hiwassee College, 531 F.3d at 1335 n.2 (citing Cort v. Ash,
422 U.S. 66, 78 (1975)) (internal citations omitted).
87
See McCulloch, 298 F.3d at 1222.

App. 41
Congress intended to create a cause of action. Instead,
all Paine can show is that Congress intended to
strengthen procedural safeguards for institutions undergoing accreditation review. Even if the amendments
to the Higher Education Act intended to provide these
additional safeguards for institutions, as Paine emphasizes, this does not mean that Congress also intended
to create a private right of action. These are two separate questions. Instead, this only means that Congress
intended for the Higher Education Act to provide additional protection to institutions such as Paine. That a
law provides additional protections for a class of persons is not enough to establish a private right of action
for that protected class.88
This conclusion is further buttressed by the fact
that the Eleventh Circuit has come to the same conclusion in a decision issued after these amendments. In
2013, nearly five years after these amendments to the
Higher Education Act, the Eleventh Circuit once again
noted that it is “well-settled” that the Higher Education Act does not provide an express, nor implied, private right of action.89 This further reinforces the
Court’s conclusion that the amendments to the Higher
Education Act did not alter this settled law. In fact,
Paine fails to cite a single case recognizing that these

88

Hiwassee College, 531 F.3d at 1335 n.2 (citing Cort v. Ash,
422 U.S. 66, 78 (1975)) (internal citations omitted).
89
Bennett v. Premiere Credit of N. Am., LLC, 504 F. App’x
872, 875 (11th Cir. 2013).

App. 42
amendments created a private right of action under
the Higher Education Act.90
The only argument that Paine makes as to Congress’s intent to create a private action is the timing of
the amendments. Paine insists that the timing of the
amendment indicates that Congress intended to overturn the Hiwassee decision.91 However, the Court finds
this argument unpersuasive. As the Southern Association points out, the Higher Education Opportunity Act,
which amended the Higher Education Act, was first
introduced in November 2007.92 The Eleventh Circuit’s
decision in Hiwassee College was published on April
14, 2008. Furthermore, even if these amendments occurred after the decision in Hiwassee College, that
does not mean that they are in response to that decision. It is entirely speculative to assume that these
amendments were passed in response to that decision.
This is especially true given that nothing in the text of
the statute indicates Congress’s intent to invalidate
90

Paine cites Escuela de Medicina San Juan Bautista, Inc.
v. Liaison Comm. on Med. Educ., 820 F. Supp. 2d 317 (D.P.R.
2011). However, the court in that case did not recognize a private
right of action under the Higher Education Act. Instead, the court
considered the Higher Education Opportunity Act’s effect on common law due process claims, and distinguished Hiwassee College
since it was decided prior to the passage of these amendments. Id.
at 319-20. Thus, while this case may arguably have bearing on
Paine’s common law due process claims, it does not support the
proposition that these 2008 amendments created a private right
of action.
91
Pl.’s Br. in Opp’n to Def.’s Mot. for Summ. J., at 4.
92
See Higher Education Opportunity Act, H.R. 4137, 110th
Cong. (1st Sess. 2007).

App. 43
Hiwassee College. Therefore, the Court finds this argument unpersuasive.
B. Common Law Due Process
Next, both parties move for summary judgment as
to Paine’s various claims for violation of common law
due process. The Southern Association moves for summary judgment as to all of Paine’s claims, and Paine
moves for summary judgment as to its claim that the
Southern Association’s failure to adhere to its own
rules deprived Paine of due process. Courts have recognized that “quasi-public” professional organizations
and accrediting agencies such as the Southern Association have a common law duty to use fair procedures
when making decisions affecting their members.93
“Courts developed the right to common law due process
as a check on organizations that exercise significant
authority in areas of public concern such as accreditation and professional licensing.”94 The federal government does not itself directly accredit institutions of
higher education.95 Instead, the Secretary of Education
approves accrediting organizations, and these bodies
set their own standards for accreditation.96 Accrediting
agencies such as the Southern Association act on behalf of the Secretary of Education and wield “the quasi93

Thomas M. Cooley Law Sch. v. Am. Bar Ass’n, 459 F.3d
705, 711 (6th Cir. 2006).
94
Id. at 712.
95
Id. at 707.
96
Id.

App. 44
governmental power of deciding which [institutions]
are eligible for federal funds.”97 Thus, courts review the
decisions of these accrediting organizations for violations of fundamental due process rights.
The scope of review, however, is limited. The court
“reviews only whether the decision of an accrediting
agency such as [Southern Association] is arbitrary and
unreasonable or an abuse of discretion and whether
the decision is based on substantial evidence.”98 Common law due process claims such as these are often
analyzed with reference to administrative law.99 The
essential elements of due process are notice, an opportunity to respond, and an open and fair deliberative
process.100 Additionally, the failure of an accrediting
agency such as the Southern Association to follow its
own rules, as well as a conflict of interest, would deny
an institution due process.101 However, although principles of federal administrative law guide the court’s
analysis, judicial review of accreditation decisions is
more limited than review of administrative agency decisions under the APA.102 “Courts have made the policy
decision to ensure that these organizations act in the
public interest and do not abuse their power, but
97

Id. at 712.
Id. at 712.
99
Hiwassee College Inc. v. S. Ass’n of Colls. & Schs., Inc., No.
1:05-CV-0951-JOF, 2007 WL 433098, at *4 (N.D. Ga. Feb. 5,
2007).
100
Id.
101
Id.
102
See Thomas M. Cooley Law School, 459 F.3d at 713.
98

App. 45
judicial review is limited to protecting the public interest.”103 Courts afford accrediting agencies great deference and focus primarily on whether the accrediting
organization’s rules provide a fair and impartial procedure and whether it followed its own rules.104 The
standard employed by courts analyzing due process
claims “tends strongly to defer to accreditation decisions reached by accrediting organizations which institutions elect to join.”105
The Court understands the significance of the issues at stake. The Defendant’s decision to remove
Paine from membership puts it “in a critical position
and most likely would signal its demise in that at the
very least federal financial aid is unavailable to unaccredited schools.”106 “An institution denied accreditation is likely to ‘promptly [go] out of business—as very
few people [are] willing [or able] to pay’ tuition out of
their own pockets.”107 Nonetheless, the Court’s review
of the Southern Association’s decision to remove Paine

103

Id.
St. Andrews, 679 F. Supp. 2d at 1328.
105
Id.
106
Hiwassee College, Inc. v. S. Ass’n. of Colleges and Schools,
Inc., CIV.A. 1:05-CV-0951-JOF, 2007 WL 433098, at *5 (N.D. Ga.
Feb. 5, 2007).
107
See Prof’l Massage Training Ctr., Inc. v. Accreditation
Alliance of Career Schs. & Colls., 781 F.3d 161, 170 (4th Cir. 2015)
(quoting Chicago Sch. of Automatic Transmissions, Inc. v. Accreditation All. of Career Schs. & Colls., 44 F.3d 447, 448 (7th Cir.
1994)).
104

App. 46
from membership is limited in scope. As the court in
St. Andrews Presbyterian College explained:
The question is one of process: did the accreditation review process here violate any common law due process rights the College may
have had because the product was an arbitrary, capricious or unreasonable accreditation decision that was not based on
substantial evidence. The Court necessarily
concludes the process was fundamentally fair
and that the College was allowed to present
sufficiently complete information about its financial condition and operations. That St. Andrews disagrees with SACS’ conclusions and
determination does not demonstrate that it
was denied due process.108
Here, the Court finds that the review process was fundamentally fair and that Paine was allowed to submit
sufficient information about its financial status so that
the Southern Association could make an informed decision concerning Paine’s accreditation. The Court addresses each of the parties’ specific arguments below.
1. The Southern Association’s Rules
Themselves
First, the Southern Association moves for summary judgment as to Paine’s claim that the Southern
Association’s rules and procedures themselves violate
due process because they are inherently arbitrary and
108

St. Andrews Presbyterian Coll. v. S. Ass’n of Colls. &
Schs., 679 F. Supp. 2d 1320, 1331 (N.D. Ga. 2009).

App. 47
unreasonable.109 In Count II of the Complaint, Paine
alleges that it was denied due process because the
Southern Association’s procedures are arbitrary and
unreasonable. “[T]here exists a ‘common law duty on
the part of ‘quasi-public’ private professional organizations or accreditation associations to employ fair
procedures when making decisions affecting their
members.’ ”110 With this claim, Paine is not arguing
that the Southern Association deviated from its procedures in a manner that resulted in due process violations, but instead that the rules themselves as they are
written deprive Paine of due process.
The Court concludes that the Southern Association is entitled to summary judgment as to this claim.
Both the Eleventh Circuit and courts in this District
have held on multiple occasions that the Southern
Association’s adjudicative rules and procedures are
fair and do not violate common law due process.111 In
its Complaint, Paine alleges a number of reasons why
109

Def.’s Mot. for Summ. J., at 20.
Prof ’l Massage Training Ctr., Inc. v. Accreditation All. of
Career Schs. & Colls., 781 F.3d 161, 169 (4th Cir. 2015) (quoting
McKeesport Hosp. v. Accreditation Council for Graduate Med.
Educ., 24 F.3d 519, 534-35 (3d Cir. 1994)).
111
See, e.g., Hiwassee Coll., Inc. v. S. Ass’n of Colls. & Schs.,
531 F.3d 1333, 1335 (“The procedural components of Hiwassee’s
argument fail to show a violation of common law due process. . . .”); St. Andrews Presbyterian Coll. v. S. Ass’n of Colls. &
Schs., Inc., 679 F. Supp. 2d 1320, 1328 (N.D. Ga. 2009) (“Thus the
Court finds the accreditation process and procedures provided by
SACS here, as they were in Hiwassee, met the requirements of
common law due process and the College’s claim that they did not
is unfounded.”).
110

App. 48
these rules are fundamentally unfair. Paine asserts
many of the same arguments that were ultimately rejected in both Hiwassee College and St. Andrews concerning the fairness of the rules themselves.112 The
procedures used by the Southern Association to remove Paine from accreditation here are the same as
those applied to remove the institutions in both
Hiwassee College and St. Andrews.113 Paine has failed
to show how the procedures utilized here are different
from the procedures in those cases. Therefore, to the
extent that these claims are indistinguishable from
the claims in these prior cases, the Court finds that
the Southern Association is entitled to summary judgment.114
However, in its brief, Paine highlights two arguments for why the Southern Association’s rules violate
common law due process that were not specifically addressed in Hiwassee College and St. Andrews. Paine
first argues that the Appeals Procedures give the
112

See St. Andrews, 679 F. Supp. 2d at 1328 (“The Court begins its analysis by noting that St. Andrews asserts many of the
same claims and violations asserted, and ultimately rejected, in
Hiwassee Coll. v. Southern Ass’n of Colleges and Schools. . . .” (internal citations omitted)).
113
Id. (“It is significant that the procedures SACS used in removing St. Andrews’ accreditation are identical to those applied
by SACS in removing Hiwassee’s accreditation, which both the
district court and the Eleventh Circuit found met the requirements of ‘common law due process,’ to the extent such due process
requirements exist in the accreditation process.”).
114
Id. (“To the extent the College’s claims are not otherwise
factually or materially distinguishable from those asserted by
Hiwassee, the Court rejects them here.”).

App. 49
Appeals Committee “overly broad discretion to determine whether newly submitted financial information
is ‘material.’ ”115 According to Paine, this rule is arbitrary and unreasonable because the Higher Education
Act does not allow this kind of discretion.116 However,
Paine has failed to show that this rule violates due
process. No portion of the cited Higher Education Act
provisions precludes an accrediting agency from developing procedures for determining what financial information is material.117 Moreover, Paine’s purported rule
would be nonsensical. If the Appeals Committee were
not permitted to determine whether new financial information is material, then every appeal would have to
be remanded because an institution could always submit new financial information (regardless of whether
it contains important new information). An automatic,
nondiscretionary rule such as this would force the
Appeals Committee to send back every single case it
reviews dealing with financial issues. Such a rule
would defy logic. Thus, the Court finds this argument
unpersuasive.
Paine next argues that the Appeals Procedures are
arbitrary and unreasonable because they allow the Appeals Committee to reject new financial information

115

Pl.’s Br. in Opp’n to Def.’s Mot. for Summ. J., at 15.
Id.
117
See 20 U.S.C. § 1099b(a)(6)(E). Furthermore, Paine fails
to explain why inconsistency between the Southern Association’s
internal rules and the Higher Education Act renders those rules
arbitrary and unreasonable.
116

App. 50
that is not “verifiable.”118 According to Paine, this rule
amounts to a “per se violation” of the Higher Education
Act because the standard of “verifiable” is not included
in the statute.119 For this argument, Paine relies upon
20 U.S.C. § 1099b(a)(6)(E), which provides that an accrediting association’s procedures should provide “one
occasion [to] seek review of significant financial information that was unavailable to the institution or program prior to the determination of the adverse action,
and that bears materially on the financial deficiencies
identified by the agency or association.”120 However,
nothing in this statute prevents an accrediting organization from establishing standards for the types of financial information that are allowed in an appeal.
Despite Paine’s insistence, the Southern Association’s
rule considering new “verifiable” financial information
does not clearly contravene the requirements of the
Higher Education Act.
Furthermore, this rule’s purported inconsistency
with the Higher Education Act does not mean that the
Appeals Procedures violate due process. Paine has not
cited any authority that a violation of the Higher Education Act constitutes a per se violation of common law
due process. This is merely an attempt by Paine to shoe
horn its rejected Higher Education Act claim into its
common law due process claim. Moreover, a cursory
reading of the cited provisions of the Higher Education
118
119
120

Pl.’s Br. in Opp’n to Def.’s Mot. for Summ. J., at 16.
Id.
20 U.S.C. § 1099b(a)(6)(E).

App. 51
Act supports the conclusion that they do not bear on
whether a due process violation occurred. The Higher
Education Act provisions cited by Paine provide criteria for the Secretary of Education to consider when reviewing an accrediting agency.121 These are not
absolute factors as to whether these organizations’
rules provide due process. Therefore, the Court finds
this argument unpersuasive.
Finally, even if this rule were arbitrary and unreasonable, Paine has not shown that it caused an injury.
To succeed on a common law due process claim, Paine
must show that the due process violation caused it
some type of injury.122 As will be discussed below in
more detail, the Appeals Committee assumed that the
information submitted was verifiable and still concluded that the Board’s underlying decision should be
upheld. Thus, even if the “verifiable” standard is arbitrary and unreasonable, it did not affect the ultimate
outcome of Paine’s appeal, and thus could not have deprived Paine of due process. For these reasons, the
Southern Association is entitled to summary judgment
121

See 20 U.S.C. § 1099b(a) (“No accrediting agency or association may be determined by the Secretary to be a reliable authority as to the quality of education or training offered for the
purposes of this chapter or for other Federal purposes, unless the
agency or association meets criteria established by the Secretary
pursuant to this section. The Secretary shall, after notice and opportunity for a hearing, establish criteria for such determinations.”).
122
See, e.g., St. Andrews Presbyterian Coll. v. S. Ass’n of
Colls. & Schs., Inc., 679 F. Supp. 2d 1320, 1333 (N.D. Ga. 2009)
(“St. Andrews has failed to show that the alleged conflict caused
it any injury or otherwise affect the accreditation process.”).

App. 52
as to Paine’s claims that its rules and procedures violate common law due process.
2. Substantial Evidence
Next, the Southern Association moves for summary judgment as to Paine’s claim that the Southern
Association’s decision was not based on substantial evidence.123 In Count III, Paine alleges that the Southern
Association violated its common law due process rights
because the Southern Association’s decision was unsupported by substantial evidence. Courts, when determining whether a common law due process violation
has occurred, “review ‘only whether the decision of an
accrediting agency such as [Southern Association] is
arbitrary and unreasonable or an abuse of discretion
and whether the decision is based on substantial evidence.’ ”124 “The Supreme Court has defined substantial evidence to be anything ‘more than a mere
scintilla’ provided that a ‘reasonable mind might accept [the evidence] as adequate to support a conclusion.’ ” Paine argues that, although “substantial
evidence” is ordinarily a deferential standard, issues
of fact exist in this case that preclude summary judgment.
However, the Court finds that no genuine dispute
of material fact exists, and concludes that the
123

Def.’s Mot. for Summ. J., at 22.
Hiwassee Coll., Inc. v. S. Ass’n of Colls. & Schs., 531 F.3d
1333, 1335 n.4 (11th Cir. 2008) (quoting Thomas M. Cooley Law
Sch. v. Am. Bar Ass’n, 459 F.3d 705, 711, 712 (6th Cir. 2006)).
124

App. 53
Southern Association’s decision was based upon substantial evidence.125 Ample evidence existed to support
the decisions of the Board of Trustees and the Appeals
Committee to revoke Paine’s accreditation due to serious financial problems.126 Paine does not dispute the
existence of a dire financial situation at the college.127
It does not dispute, among other things, that its Fiscal
Year 2014 and Fiscal Year 2015 audited financial statements showed a drop in unrestricted assets;128 that
enrollment for the 2015-2016 school year was 34% less
than budgeted;129 that both the unaudited Fiscal Year
2016 financial statements submitted to the Appeals
Committee, and the audited Fiscal Year 2016 statements, showed approximately $1.4 million in student
accounts receivables;130 that the unaudited financial
statements submitted to the Appeals Committee
showed an increase in borrowing on Paine’s line of
credit;131 and that Paine’s operating net assets in Fiscal
Year 2016 remained below the operating net assets in
Fiscal Year 2012.132 This evidence, along with a number
125

Prof ’l Massage Training Ctr., Inc. v. Accreditation All. of
Career Schs. & Colls., 781 F.3d 161, 174 (4th Cir. 2015) (quoting
Almy v. Sebelius, 679 F.3d 297, 301 (4th Cir. 2012)).
126
See St. Andrews, 679 F. Supp. 2d at 1334 (“SACS has presented ample evidence supporting its decision that St. Andrews
had longstanding financial problems and shortcomings.”).
127
See Def.’s Statement of Material Facts ¶¶ 123-39.
128
Id. ¶¶ 125-26.
129
Id. ¶ 127.
130
Id. ¶¶ 129-30.
131
Id. ¶ 132.
132
Id. ¶ 136.

App. 54
of other facts that Paine does not dispute, allowed the
Appeals Committee to reasonably conclude that
Paine’s removal should be upheld due to financial issues. Furthermore, the Southern Association’s interpretation of its financial requirements is entitled to
deference.133 Thus, its conclusion that the evidence presented established a violation of the Principles concerning financial stability is entitled to deference. For
these reasons, the Court concludes that the Southern
Association’s decision is supported by substantial evidence.
Paine argues that a dispute of fact exists because
a comparison of the unaudited June 30, 2016 financial
statements reviewed by the Appeals Committee and
the June 30, 2015 financial statements reviewed by the
C & R Committee shows significant improvements in
Paine’s financial condition.134 Thus, according to Paine,
a dispute of fact exists as to whether the Appeals Committee’s decision was based upon substantial evidence.
However, under the limited scope of review employed
in these cases, the Court does not ask whether there is
any evidence that would have allowed the Appeals
133

See St. Andrews, 679. F. Supp. 2d at 1334.
Paine also argues that “the internal appeals process . . .
was chalked with so many improprieties that significant questions exist about whether the result was fair.” Pl.’s Br. in Opp’n
to Def.’s Mot. for Summ. J., at 18. However, this argument addresses a separate question – whether the Southern Association’s
decision was arbitrary and unreasonable due to a departure from
its own rules and procedures. That question is addressed below.
This argument has no bearing on whether the Southern Association’s decision is supported by substantial evidence.
134

App. 55
Committee to come to a different conclusion, as Paine
suggests. Instead, the Court must ask whether there is
enough evidence upon which a reasonable mind could
have come to the conclusion that the Appeals Committee did, even if another conclusion would also have
been reasonable. While there may have been conflicting evidence as to Paine’s financial condition, there is
no dispute that sufficient evidence existed supporting
the committee’s decision. The evidence presented to
the Appeals Committee would allow a reasonable mind
to conclude that Paine should be removed due to issues
with its financial stability. While Paine may disagree
with the Southern Association’s ultimate conclusion
from this evidence, it cannot show that this conclusion
was unreasonable. Therefore, the Court concludes that
the Appeals Committee’s decision was based upon substantial evidence.
3. The Southern Association’s Adherence
to Rules and Procedures
Next, the parties each move for summary judgment as to Paine’s claim in Count I. There, Paine alleges that the Southern Association violated its
common law due process rights by failing to provide a
fair adjudicative process and failing to adhere to its
rules and procedures. The Southern Association moves
for summary judgment as to this claim and argues that
it gave Paine a full and fair opportunity over the course
of four years to demonstrate its adherence to the Principles. Paine also moves for summary judgment as
to this claim, arguing that it has shown that the

App. 56
Southern Association violated its common law due process rights as a matter of law. The Court addresses
each of the parties’ specific arguments in turn.
i. Administrative Record
Paine first argues that the Southern Association
failed to follow its procedures by not producing documents to Paine that the Appeals Procedures required
to be produced before the appeals hearing.135 The Appeals Procedures require the Southern Association to
provide certain documents, referred to as the “administrative record,” to an institution before an appeals
hearing. Specifically, the Appeals Procedures provide
that:
At least 30 days before the date of the appeals
hearing, [Southern Association] must submit
to the institution and the appeals hearing Officer documents (administrative record) used
by the [Southern Association] Board leading
to and arriving at the decision regarding the
institution. The administrative record includes the following: (1) minutes of the Committee on Compliance and Reports as pertain
exclusively to the institutional case, (2)
minutes of the Executive Council as pertain
exclusively to the institutional case, (3) a historical summary of the Commission actions
involving the institution, (4) a transcript of
the meeting on the record conducted by the
Committee on Compliance and Reports prior
135

Pl.’s Mot. for Partial Summ. J., at 10.

App. 57
to the decision of the Board to take adverse
action, (5) official Commission correspondence
leading to the adverse action and also related
to the appeal, (6) all case materials forwarded
to the Committee on Compliance and Reports
and used as a basis for the recommendation of
an adverse action, and (7) other documents
bearing on the substance of the appeal.136
Paine argues that the Southern Association failed to
adhere to these procedures because it did not submit
to Paine minutes from the Executive Council meetings
from 2012 through 2015 (the years that the Southern
Association placed Paine on Warning and Probation),
nor 2016 (the year that Paine was removed).137 Paine
also argues that the Southern Association violated this
provision by not providing Paine with analyses created
by the Southern Association’s staff “which were crucial
evidence of how Southern Association viewed Paine’s
financial statement audits, influenced the 2016 Special
Committee’s report and served as the basis of Southern Association’s staff memorandum to the C & R committee. . . .”138
The Southern Association responds that it did, in
fact, provide the full administrative record, and that it
should be entitled to summary judgment on this question.139 The Appeals Procedures only require that the
136

Appeals Procedures § IV(E) [Doc. 73-1 at 103].
Pl.’s Mot. for Partial Summ. J., at 11.
138
Id.
139
Def.’s Mot. for Summ. J., at 16; Def.’s Br. in Opp’n to Pl.’s
Mot. for Partial Summ. J., at 11-13.
137

App. 58
administrative record include Executive Council
minutes “as pertain exclusively to the institutional
case.”140 According to the Southern Association, in general it does not interpret this provision to include all
minutes from the years in question in the administrative record, and such an interpretation is entitled to
deference. However, like the courts in Hiwassee College
and St. Andrews, the Court need not reach this issue
because Paine also fails to explain how it was prejudiced by the omission of these minutes from the administrative record. To sustain a common law due process
claim, Paine must show that its rights were actually
violated by the omission of these documents.141 Paine
has not presented any evidence that the omission of
these documents from the administrative record affected the outcome of the appeal. The courts in Hiwassee and St. Andrews came to the same conclusion
regarding this argument.142 Paine admits that it received the same information in its correspondence with
the Southern Association that transmitted the results

140

Appeals Procedures § IV(E).
See Hiwassee College, 2007 WL 433098, at *13.
142
See St. Andrews Presbyterian Coll. v. S. Ass’n of Colls. &
Schs., Inc., 679 F. Supp. 2d 1320, 1334 (N.D. Ga. 2009) (“The
Court, like the court in Hiwassee I, does not need to reach this
issue because St. Andrews does not present any evidence to show
that the failure to include these documents in the Administrative
Record did or would have affected SACS’ decision.”); Hiwassee
College, 2007 WL 433098, at *13 (“Even if the court considers that
the minutes and the reports should have been included in the Administrative Record, Hiwassee has failed to demonstrate how its
due process rights were violated by their omission.”).
141

App. 59
of the Board votes in 2012 to 2016.143 Since Paine fails
to articulate how it was prejudiced by the omission of
these minutes in both its Motion for Partial Summary
Judgment and its Response to the Defendant’s Motion
for Summary Judgment, this argument fails.
Paine also argues that the Southern Association
violated this provision of the Appeals Procedures by
omitting the “Barrett Analysis” from the administrative record.144 However, Paine fails to explain why the
Barrett Analysis should have been included in the administrative record. Paine has not explained why the
Barrett Analysis should be included in one of the categories of documents constituting the administrative
record listed in the Appeals Procedures. Furthermore,
it is undisputed that the Southern Association staff
created this document, and Paine has provided no
evidence that any individual involved in the decisionmaking process in Paine’s case – members of the
C & R Committee, Executive Council, Board of Trustees, or Appeals Committee – ever viewed this document. Thus, it is unclear how this document had
bearing on the substance of Paine’s appeal. Paine argues that the Barrett Analysis was important because
it “served as the basis” of the Southern Association
staff ’s memorandum to the C & R Committee, which
Paine refers to as the “Hoefer Memorandum.”145 However, the Hoefer Memorandum itself was included in
143

Pl.’s Response to Def.’s Statement of Material Facts
¶¶ 101-02.
144
Pl.’s Mot. for Partial Summ. J., at 11.
145
Id.

App. 60
the administrative record, which shows there was no
reason to include the Barrett Analysis itself. Finally,
Paine fails to explain how the omission of the Barrett
Analysis from the administrative record adversely affected its appeal.146 Therefore, this claim fails as a matter of law.
ii. Conflicts of Interest
Next, Paine argues that the Southern Association
violated its due process rights due to its selection of
persons with conflicts of interest for the Appeals Committee.147 The Appeals Procedures provide that “[a]
member of the Appeals Committee shall recuse
him/herself from that appeals hearing if there is a conflict of interest or an appearance of a conflict of interest.”148 They further provide that:
Conflict of interest, or the appearance of conflict of interest, as applied to members of the
Appeals Committee exists if the Committee
member (1) is employed within a state where
the parent campus of the institution is located, (2) has voted on the accreditation status
of the institution-either during the SACSCOC
Board meeting or the meetings of the Committees on Compliance and Reports-at any
time leading to the appealable decision, or
(3) has served as a member of the site team
which visited the institution and resulted in a
146
147
148

St. Andrews, 679 F. Supp. 2d at 1333-34.
Pl.’s Mot. for Partial Summ. J., at 12.
Appeals Procedures § II(A).

App. 61
committee report at any time leading to the
appealable decision.149
A conflict of interest also exists if the Committee member “has a close personal or familial relationship with
persons at the institution or a strong bias regarding
the institution.”150 Paine argues that a conflict of interest existed as to Dr. William T. Luckey, Jr., who served
on the Appeals Committee for the Paine decision. According to Paine, the selection of Luckey created a conflict of interest because: (1) he served on the Board of
Trustees of the Southern Association and the Executive Council when those bodies voted to place Paine on
Warning status in 2012 and 2013; (2) Luckey had a
“close personal relationship” with Paine’s former president, Dr. George Bradley, whose past actions were criticized in Paine’s brief; and (3) Luckey’s institution,
Lindsey Wilson College, assisted Paine in establishing
a football program, a decision which Paine blamed for
its financial problems in its brief to the Appeals Committee.151 Therefore, according to Paine, Luckey could
not fairly judge the case, which created a fundamentally unfair appeals process for Paine.
Paine first argues that Luckey’s selection created
a conflict of interest because he had previously served
on the Board of Trustees and Executive Council when
they voted to place Paine on Warning.152 The Appeals
149
150
151
152

Id.
Id.
Pl.’s Mot. for Partial Summ. J., at 12-13.
Id. at 12-13.

App. 62
Procedures provide that a conflict of interest exists if
a committee member “has voted on the accreditation
status of the institution-either during the SACSCOC
Board meeting or the meetings of the Committees on
Compliance and Reports-at any time leading to the
appealable decision.”153 According to Paine, Luckey’s
service created a conflict of interest under this provision of the Appeals Procedures due to this prior service.
It is undisputed that Luckey served on the Board
of Trustees and Executive Council when those bodies
voted to place Paine on Warning in 2012 and 2013.154
Instead, the parties disagree as to whether this can be
considered voting on the accreditation status of the institution “at any time leading to the appealable decision.” According to Paine, these votes to put Paine on
warning status were part of the process leading to the
ultimate decision to remove Paine from membership.
The Southern Association argues, in contrast, that it
does not interpret these votes as “leading to the appealable decision,” and that Paine cannot substitute
its own view of the rules for that of the Southern Association.155 Instead, the Southern Association contends
that this rule defines a conflict in this context to exist
“only when an Appeals Committee member served on
153

Appeals Procedures § II(A).
Pl.’s Statement of Material Facts ¶ 106. Instead, the
Southern Association only disputes whether these facts are material.
155
Def.’s Br. in Opp’n to Pl.’s Mot. for Partial Summ. J., at
13.
154

App. 63
a C & R Committee evaluating the institution or voted
to revoke the institution’s accreditation,” neither of
which Luckey did.156
The Court agrees with Paine that Luckey’s service
on the Appeals Committee may present a conflict of interest. The Southern Association’s interpretation is not
entitled to deference because it conflicts with the terms
of the Appeals Procedures. The Appeals Procedures
provide that a conflict exists when a member has voted
on the accreditation status of the institution, either
during the Board Meeting or C & R Committee meeting, at any time leading to the appealable decision.
Thus, the rule does not limit a conflict to a C & R Committee evaluation or voting to revoke accreditation, as
the Southern Association contends. In Hiwassee College, the institution made a similar argument concerning a committee member who had served on previous
C & R Committees that reviewed the institution.157 The
Southern Association argued there that the committee
member did not have a conflict because he did not vote
on the accreditation status of the institution during
the Board meeting or C & R Committee meeting which
dealt with the issue of removing it from membership.158
The court found that the institution raised a “colorable
claim.” The reason that the institution was being removed from membership was because it had exhausted
156

Id.
Hiwassee College, Inc. v. S. Ass’n of Colls. & Schs., No.
1:05-CV-0951-JOF, 2007 WL 433098, at *13-14 (N.D. Ga. Feb. 5,
2007).
158
Id. at *13.
157

App. 64
its “supervision” options, and the earlier decisions were
“arguably part of that process.”159 Likewise, Luckey
served on the Board of Trustees when it voted to place
Paine on warning status. This was arguably part of the
process leading to the removal of Paine from membership. Thus, Paine has raised a colorable claim concerning a conflict of interest.
Nonetheless, the Court also concludes that Paine
has failed to show that this conflict caused it injury. In
St. Andrews Presbyterian College, the court noted that
“while there are conflicting claims whether Dr. Laws
had a conflict of interest, St. Andrews has failed to
show that the alleged conflict caused it any injury or
otherwise affect the accreditation process.”160 Similarly, in Hiwassee College, the court found that, even
though a conflict of interest existed with one of the
Appeals Committee members, “Hiwassee has brought
forward no evidence to show that Dr. Goodson’s conflict
permeated the entire six-member appeals committee
which rendered a unanimous decision as to Hiwassee’s
accreditation status.”161 The court further noted that
granting Hiwassee the remedy it sought “would provide a windfall to Hiwassee in vitiating the procedure
SACS has in place to address potential accreditation
deficiencies where there is no evidence in the record to
indicate that Dr. Goodson’s presence on the Appeals
159

Id. at *14.
St. Andrews Presbyterian Coll. v. S. Ass’n of Colls. &
Schs., Inc., 679 F. Supp. 2d 1320, 1333 (N.D. Ga. 2009).
161
Hiwassee College, Inc. v. S. Ass’n of Colls. & Schs., Inc.,
490 F. Supp. 2d 1348, 1351 (N.D. Ga. 2007).
160

App. 65
Committee affected in any way the fundamental fairness of the process afforded to Hiwassee to challenge
SACS’s accreditation decision.”162 Likewise, Paine has
not shown how Luckey’s service on the Appeals Committee, even if there was a conflict of interest under the
terms of the Appeals Procedures, has caused it any injury or affected the accreditation process. Paine has
made no viable argument that Luckey’s presence altered the fundamental fairness of the appeals process.
There is no evidence that Luckey’s conflict “permeated”
the entire Appeals Committee, which unanimously
voted to remove Paine’s membership. Without any evidence showing an injury, Paine’s claim for conflict of
interest fails as a matter of law.
Next, Paine alleges that a conflict of interest existed due to a personal relationship between Luckey
and Paine’s former president Dr. Bradley.163 According
to Paine, Luckey and Bradley had a “close personal relationship,” and that this relationship created a conflict because Paine heavily criticized the actions of
Bradley in its brief to the Appeals Committee.164 The
Appeals Procedures provide that a conflict of interest,
or an appearance of a conflict of interest, exists if,
among other things, an Appeals Committee member
“has a close personal or familial relationship with persons at the institution or a strong bias regarding the

162
163
164

Id. at 1351-52.
Pl.’s Mot. for Partial Summ. J., at 13.
Id.

App. 66
institution.”165 Paine argues that a close personal relationship existed because Bradley invited Luckey and
his wife to attend the Masters Golf Tournament as his
guest, and allowed them to stay at his home.166 Paine
further argues that Luckey invited Bradley and his
wife to visit his beach house in Florida after Bradley
left Paine.167
The Court concludes that these facts are insufficient to show that a conflict of interest existed. “A speculative possibility that the accrediting body acted not
because it was persuaded by the evidence, but for some
improper reason, fails to overcome the strong presumption of regularity.”168 Paine’s allegations amount
to little more than speculation that Luckey acted due
to improper personal reasons, as opposed to relying
upon the evidence presented, in voting to uphold the
decision to remove Paine from accreditation. Luckey
and Bradley most likely did not have the type of close
relationship necessary to create a conflict of interest.
Bradley had already departed from Paine by the time
of the appeal, and the facts alleged do not necessarily
establish that the two had a close, personal relationship. Even more importantly, however, Paine has failed
to show that this alleged conflict of interest caused it
any injury or otherwise impacted the accreditation
165

Appeals Procedures § II(A).
Pl.’s Mot. for Partial Summ. J., at 13.
167
Id.
168
Found. for Interior Design Educ. Research v. Savannah
Coll. of Art & Design, 39 F. Supp. 2d 889, 897 (W.D. Mich. 1998)
(internal alterations and citations omitted).
166

App. 67
process.169 Even if this relationship did present a
conflict of interest, Paine has failed to show that this
conflict resulted in a fundamentally unfair appeals
process or otherwise caused it any prejudice, as explained above. Therefore, this argument fails.
Finally, Paine argues that a conflict existed as to
Luckey because his institution, Lindsey Wilson College, assisted Bradley’s administration in establishing
Paine’s football program, which Paine cited during the
appeals process as a major factor in Paine’s financial
problems.170 However, the Court finds that this argument presents little more than conjecture as to bias on
Luckey’s part. Paine has presented no evidence that
Luckey was persuaded to vote against Paine due to
personal animus or bias, as opposed to basing his decision upon the evidence. Furthermore, the Court finds
it highly unlikely that Luckey would have harbored
bias or personal animus against Paine because it
blamed the creation of its football program for contributing to its financial problems. At most, this constitutes speculation. Given the presumption of regularity
that the Southern Association is entitled to on this issue, the Court finds that Paine has not established that
a conflict existed. Furthermore, as discussed above,
even if this did present a conflict of interest, Paine has
169

St. Andrews Presbyterian Coll. v. S. Ass’n of Colls. &
Schs., Inc., 679 F. Supp. 2d 1320, 1333 (N.D. Ga. 2009) (“The
Court finds that while there are conflicting claims whether Dr.
Laws had a conflict of interest, St. Andrews has failed to show
that the alleged conflict caused it any injury or otherwise affect
the accreditation process.”).
170
Pl.’s Mot. for Partial Summ. J., at 13-14.

App. 68
not established that Luckey’s conflict caused it any injury. Therefore, this claim fails as a matter of law.
iii. Non-Elected Appeals Committee
Members
Next, Paine argues that the Southern Association
violated its procedures when “Luthman improperly appointed two non-elected, cherry-picked individuals to
the Paine Appeals Committee.”171 The Appeals Procedures provide that the Appeals Committee shall consist of 12 persons elected by the College Delegate
Assembly and who have served on the Board of Trustees.172 The procedures further provide that the Appeals Committee should be made up of eight chief
executive officers, two faculty/academic personnel, and
two public members.173 A minimum of five members of
the Appeals Committee constitutes a quorum, and a
decision is made by a majority vote.174 Importantly, the
Chair of the Board of Trustees fills vacancies on the
Appeals Committee “which occur during terms of office
when it is necessary to obtain a quorum.”175
Here, Paine contends that the Southern Association violated this provision of the Appeals Procedures
by allowing Luthman to improperly appoint two

171
172
173
174
175

Pl.’s Mot. for Partial Summ. J., at 14.
Appeals Procedures § II(A).
Id.
Id.
Id.

App. 69
non-elected individuals to the Appeals Committee.176
According to Paine, Luthman “cherry-picked” Dr. Harold T. Martin and Dr. W. Blaine Early to serve on the
Appeals Committee, even though she did not know yet
whether or not there would be a quorum.177 However,
Paine has failed to provide evidence supporting such
an allegation. Nothing in the record indicates that
Luthman herself chose the two individuals to be appointed to the Appeals Committee. Instead, the only
evidence offered shows that Dr. Keenum, the Chair of
the Board, appointed these two individuals to establish
a quorum, as the Appeals Procedures require. In her
deposition, Luthman testified that Early and Martin
were appointed to the Appeals Committee by the
Chair, Keenum, to create a quorum.178 Paine provides
no evidence disputing Luthman’s testimony. Instead,
Paine argues that there is “no credible evidence” that
Dr. Keenum actually made the appointment of these
members to fill a quorum instead of Luthman.179 However, Paine bears the burden of proving that the Southern Association violated its due process rights. It must
provide evidence that the Southern Association appointed Appeals Committee members in a manner that
violates the Appeals Procedures, and that this violation resulted in prejudice. Paine does not meet this
burden. Luthman testified that Keenum, and not her,
selected the members for the Appeals Committee to
176
177
178
179

Pl.’s Mot. for Partial Summ. J., at 14.
Id. at 14-15.
Luthman Dep. at 172-73.
Pl.’s Statement of Material Facts ¶ 91.

App. 70
establish a quorum.180 Paine has not produced any evidence to the contrary. Since there is no evidence in the
record showing that the selection of Martin and Early
was done in a manner that violated the Appeals Procedures, this argument fails.
Furthermore, Paine has not shown that the selection of Martin and Early caused it any injury, even if
Luthman did improperly choose them in violation of
the Appeals Procedures. In St. Andrews, the plaintiff
argued that the Hearing Officer in its appeal was improperly elected in violation of the Appeals Procedures.
The court rejected this argument, and noted that the
college had “not presented any evidence . . . that his
service as a hearing officer caused Plaintiff any injury.”181 Likewise, Paine has not shown that the appointment of Martin and Early, even if improper, had
any effect on the outcome of the appeal. Paine makes
three arguments for why Martin and Early’s appointment affected the outcome. First, it argues that, without Martin and Early, there would not have been a
180

Paine also focuses on Luthman’s testimony concerning
her email communications with Keenum’s assistant memorializing the selection of Early and Martin to the Board, which were
not located during discovery. See Pl.’s Statement of Material
Facts ¶ 91. However, the absence of this evidence does not prove
that Luthman, as opposed to Keenum, selected Martin and Early
for the committee. Since Paine bears the burden of proof on its
claim, it must provide evidence showing that Luthman made
these selections in violation of the Appeals Procedures. The absence of these emails from the record does not satisfy this burden.
181
St. Andrews Presbyterian Coll. v. S. Ass’n of Colls. &
Schs., Inc., 679 F. Supp. 2d 1320, 1334 (N.D. Ga. 2009).

App. 71
quorum.182 However, this argument is circular. The reason Martin and Early were appointed was because
there was no quorum. The Appeals Procedures require
the Chair of the Board to fill vacancies to establish a
quorum. This could not be prejudicial. Paine next argues that Luthman intentionally recommended Martin and Early because they would be a resource on
financial and accounting issues.183 However, the fact
that Early and Martin may have had financial backgrounds does not establish that Paine was injured by
their selection to the committee. Finally, Paine argues
that Early “insisted” on adding a line to the Appeals
Committee decision stating that even if the audited financial information had been considered, it would not
have changed the committee’s decision.184 However, in
his deposition, Early merely stated that he advocated
including a sentence in their decision letter stating
that, even if the audited statements had been considered, it would not have changed their decision.185 This
only shows that Early advocated including the reasoning in the letter. It does not show that he was singlehandedly behind the committee’s finding that the
audited financial statements would not have made a
difference, even if considered. Therefore, the Southern
Association is entitled to summary judgment as to this
issue.

182
183
184
185

Pl.’s Reply Br., at 14.
Id.
Id.
Early Dep. at 108-09.

App. 72
iv. Exclusion of Evidence and Failure
to Follow Deadlines
Next, Paine argues that the Southern Association
violated the Appeals Procedures by excluding Paine’s
audited Fiscal Year 2016 financial statements from the
evidence considered during the appeal.186 Both parties
move for summary judgment as to this issue.187 The
Southern Association set a deadline of August 8, 2016
for Paine to submit its brief. However, the audit of
Paine’s financial statements for Fiscal Year 2016 was
not yet complete by this time, and Paine instead attached its unaudited financial statements for that year
to its brief and stated that it would supplement the
brief with the audited statements. On August 12, 2016,
Cynthia Escamilla, the Hearing Officer, granted the
Southern Association’s request and ruled that Paine
could not supplement its brief with the audited financial statements.188 Paine now argues that the exclusion
of this evidence violated the Southern Association’s
rules. However, it does not identify a particular rule
that Escamilla’s ruling violated. In fact, the Appeals
Procedures state that the Hearing Officer is “responsible for ruling on all procedural questions” prior to, during, and following the hearing and that she “presides
over the hearing, including . . . ruling on the admissibility of evidence.”189 Thus, the Court concludes that

186
187
188
189

Pl.’s Mot. for Partial Summ. J., at 16.
See id. at 16-17; Def.’s Mot. for Summ. J., at 15.
Pl.’s Statement of Material Facts ¶ 117.
Appeals Procedures § III(B)(4).

App. 73
Paine has not satisfied its burden in showing that this
decision violated the Appeals Procedures.
And, even if the exclusion of these audited financial statements did violate the Appeals Procedures,
Paine has again failed to show that such a violation
caused it injury. Paine’s audited Fiscal Year 2016 financial statements were largely identical to the unaudited
Fiscal Year 2016 financial statements that Paine submitted to the Appeals Committee.190 During the appeals hearing, Paine’s counsel admitted to the Appeals
Committee that the audited financial statements did
not differ from the unaudited statements that were
submitted.191 And, notwithstanding the rule that it
only consider verifiable new financial information, the
Appeals Committee found that, even if the unaudited
financial statements for Fiscal Year 2016 had been verifiable, they still would not provide material information that demonstrated financial stability.192 Paine
does not dispute these facts.193 Thus, even if Paine had
190

Def.’s Statement of Material Facts ¶ 146.
Id. ¶ 147.
192
Id. ¶ 148.
193
In its reply brief, Paine contends that the Southern Association’s counsel urged the Appeals Committee during the hearing to disregard the unaudited financial statements, and that the
Appeals Committee did in fact disregard this evidence. Pl.’s Reply
Br., at 13. However, Paine’s Statement of Material Facts does not
support this argument. There, Paine contends that the Southern
Association’s counsel argued that the unaudited financial statements could not be relied upon. Pl.’s Statement of Material Facts
¶ 150. It then asserted that Escamilla, the Hearing Officer, refused to reconsider her decision to exclude the audited statements. Id. ¶¶ 151-52. Paine then contends that the Southern
191

App. 74
been able to submit the audited financial statements,
this would not have changed the Appeals Committee’s
ultimate decision. Therefore, since Paine has failed to
show that the exclusion of this evidence caused it any
harm, this argument lacks merit.194
Association’s counsel argued that the audited statements were
not in front of the committee, but even if they were, they would
not change the result of the appeal. Id. ¶ 153. However, these
facts, even if true, do not dispute the fact that the Appeals Committee assumed that the unaudited financial statements were
verifiable, and still concluded that Paine should be removed from
membership. Paine has conceded this fact. Therefore, even if the
Southern Association’s counsel highlighted the absence of the audited statements, this did not prejudice Paine.
194
In its Brief as Amicus Curiae in Support of Paine’s Motion
for Partial Summary Judgment [Doc. 103], the United Negro College Fund (“UNCF”) emphasizes the purportedly harsh and disparate impact that certain Department of Education policies had
on historically black colleges and universities, such as Paine, from
2011 to 2014. See [Doc. 103] at 6-10. UNCF argues that, in light
of these “extenuating and temporary circumstances,” the failure
of the Appeals Committee to consider Paine’s audited financial
statements “compounded” the arbitrary and unreasonable nature
of the Southern Association’s decision. Id. at 14. However, the
Court’s review is limited. The Court cannot second guess the
weight that the Southern Association put on different criteria,
such as the impact of federal policy, in deciding that Paine was
not in compliance with the financial requirements of the Principles. Instead, the Court can only consider whether the Southern
Association’s decision was arbitrary and unreasonable or an
abuse of discretion, and whether the decision was based on substantial evidence. As discussed above, the Hearing Officer’s decision to exclude the Fiscal Year 2016 audited financial statements
did not contravene the Appeals Procedures, and even if it did,
such an error did not constitute a due process violation because
the Appeals Committee nonetheless concluded that such information would not have changed its ultimate decision. Therefore,
even despite the blame that these Department of Education

App. 75
Paine also argues that the Southern Association
“incorrectly told Paine that its brief was due on August
8, 2016, more than a month prior to the September 12,
2016 appeals hearing.”195 According to Paine, this prejudiced it because the audit of its financial statements
was not yet completed by this point.196 However, the
Court similarly finds this argument unpersuasive.
First, the deadline imposed by the Southern Association was reasonable. The Appeals Procedures provide
that an institution must submit its brief “[a]t least 14
days before the date of the appeals hearing.”197 However, the Appeals Procedures also state that an appeals
hearing for an action taken in June, such as this action,
shall occur on the Monday, Tuesday, or Wednesday of
the third week of August.198 Thus, the hearing should
have taken place between August 15-17, 2016, with the
brief being due two weeks before that date. However,
Paine requested that the appeals hearing be postponed
until September 12, 2016, and the Southern Association granted this request.199 Paine did not request an
extension of the briefing deadline, but the Southern
Association nonetheless extended the deadline to August 8.200 The Court finds that it was reasonable for the
policies may deserve for Paine’s trouble, Paine has not established the necessary elements of a common law due process claim.
195
Pl.’s Mot. for Partial Summ. J., at 16-17.
196
Id. at 19.
197
Appeals Procedures § IV(E).
198
Id. § IV(D).
199
Def.’s Statement of Material Facts ¶ 104.
200
Id. ¶ 105.

App. 76
Southern Association to postpone the appeals hearing
without extending the deadline for submission of
Paine’s brief. The twenty-five day period that Paine
had to submit its brief after receiving the administrative record was longer than almost all institutions receive to file an appeals brief. Nothing in the rules
requires the briefing deadline to be extended if an appeals hearing is continued. Furthermore, had the
Southern Association not granted postponement of the
hearing, Paine’s brief would have been due, at the latest, in the first week of August. Just because the Southern Association decided to move the hearing date, at
Paine’s request, does not mean that it should also get
a longer period of time to submit a brief. Nothing in the
Appeals Procedures prohibits the Southern Association from continuing the date of an appeals hearing
while maintaining the same schedule for briefing.
Since this interpretation of the rules is reasonable, the
Court defers to the Southern Association’s interpretation of its own rules.
Furthermore, even if the Southern Association did
violate the Appeals Procedures by requiring submission of Paine’s brief on August 8, 2016, Paine cannot
show that this violation injured Paine. As noted above,
the Appeals Committee concluded that even if it did
consider the audited financial statements, those documents would not have altered its ultimate decision
concerning Paine’s appeal. Therefore, even if the
Southern Association had allowed Paine to submit a
brief at a later point in time that included the audited
financial statements, this would not have affected the

App. 77
outcome of its appeal. For this reason, the Court finds
this argument similarly unavailing.
v. Ex Parte Communications
Next, Paine argues that the Southern Association
violated the Appeals Procedures by allowing repeated,
“secret” ex parte contacts between Carol Luthman and
members of the Appeals Committee.201 Paine asserts
that Luthman engaged in a number of ex parte contacts with the Hearing Officer, members of the Appeals
Committee, and the Southern Association’s attorney,
including: (1) ex parte emails with the Hearing Officer
concerning responding to an email from an attorney for
Paine, (2) an ex parte conference call with the Chair of
the Appeals Committee about an appeals handbook,
and (3) a meeting with the Hearing Officer and Chair
of the Appeals Committee in the hotel restaurant on
the evening of September 11, 2016, the night before the
hearing.202 According to Paine, this violated its due process rights and “taint[ed] the appeal process.”203
However, these contacts were not improper under
the Southern Association’s rules and procedures. Nothing in the Appeals Procedures precludes the day-to-day
201

Pl.’s Mot. for Partial Summ. J., at 17-19.
Id. at 18-19. Additionally, Paine contends that Luthman
participated in a meeting with the Southern Association’s attorney, Mr. McKee, and the Southern Association’s witnesses immediately prior to meeting with Martin and Escamilla at the hotel
restaurant. See id. at 19.
203
Id.
202

App. 78
operations staff of the Southern Association, such as
Luthman, from assisting in the logistics of the appeals
process and being in contact with the members of the
Appeals Committee. In fact, concluding otherwise
would make the appeals process unworkable. Luthman
testified in her deposition that the Southern Association appeals are very “episodic” and that a hearing
officer or member of the Appeals Committee may only
experience one or two appeals during their service.204
Due to this inexperience, Luthman often communicated with the Hearing Officer and Appeals Committee
Chair concerning the process.205 Otherwise, the Hearing Officer and Chair would lack guidance in the logistics of the appeal.
In fact, Luthman testified that the Southern Association changed the Appeals Procedures in the 1990s
because, in the past, the Southern Association’s legal
counsel worked with the Hearing Officer and Appeals
Committee on the logistics of the appeals while also
representing the Southern Association in the same appeal, which she considered to be “unfair.”206 She further
testified that the current rules allow the Southern Association and the institution to each have their own legal representation, while the individual in her position
worked with the administration to ensure the logistics
and processes worked out.207 It is not improper under
204
205
206
207

Luthman Dep. at 61-62.
Id.
Id. at 61.
Id. at 62.

App. 79
the rules for the Southern Association staff member organizing an appeal to have pre-hearing contacts with
the Hearing Officer and Chair of the Appeals Committee. Other courts have similarly concluded that it is appropriate for the staff of an accreditation organization
to work with an appeals committee on procedural issues.208
Furthermore, “these allegations do not even hint
at the existence of prejudicial error that would be
needed to justify relief.”209 Paine has provided no evidence that these contacts had an effect on any of the
decisionmakers on the Appeals Committee. Even if
the contacts were improper, which they were not, Paine
was not prejudiced by them. “A mistake that has no
bearing on the ultimate decision or causes no prejudice
shall not be the basis for reversing an agency’s determination.”210 Paine has failed to produce evidence
that any of the members of the Appeals Committee, including Escamilla, the Hearing Officer, and Martin, the
Chair, were biased as a result of contacts with Luthman,
even assuming those contacts were improper.211 Nothing in the record indicates that Luthman’s discussions
had an adverse effect on Paine’s appeal, that Luthman
208

Med. Inst. of Minn. v. Nat’l Ass’n of Trade and Tech. Schs.,
817 F.2d 1310, 1314 (8th Cir. 1987).
209
Thomas M. Cooley Law Sch. v. Am. Bar Ass’n, 459 F.3d
705, 716 (6th Cir. 2006) (internal quotations omitted).
210
Id. (internal quotations and alterations omitted).
211
See Med. Inst. of Minn., 817 F.2d at 1314 (“MIM’s improper ‘prepping’ argument is without merit because MIM has
produced no evidence that the appeals panel was biased by any
discussions it may have had with NATTS’ counsel.”).

App. 80
discussed the merits of the appeal, or that Luthman
was biased against Paine. In fact, in each of these alleged ex parte contacts, Luthman was merely discussing the procedural aspects of conducting an appeal
such as this, a role which Luthman indicates is entirely
necessary for an effective and efficient appeals process
to occur. Therefore, the Court finds this unpersuasive.
vi. Wrong standard
Next, Paine argues that the Southern Association
violated its own procedures by instructing the Appeals
Committee to apply the wrong standard for remanding
the case back to the C & R Committee.212 The Appeals
Procedures provide that an institution removed from
accreditation for financial reasons may gain a remand
“if it presents new and verifiable financial information
that has become available since the adverse action was
taken and that is material to the reason for the Board’s
decision.”213 Paine asserts that the Hearing Officer instructed the Appeals Committee that the standard was
whether Paine had presented verified evidence in the
form of an audit.214 According to Paine, this was incorrect because the Appeals Procedures instruct that a
case should be remanded if the institution presents
new, material financial information that is capable of
being verified, not information that is verified.215 The
212
213
214
215

Pl.’s Mot. for Partial Summ. J., at 19.
Appeals Procedures § V(B)(2).
Pl.’s Mot. for Partial Summ. J., at 20.
Id. at 19.

App. 81
Southern Association argues in response that “verifiable” financial information means information that is
capable of being verified by the Appeals Committee at
the time of submission.216 It also argues that its interpretation is reasonable and entitled to deference.217
The Court agrees that the Southern Association’s
interpretation is reasonable and entitled to deference.
The “[Southern Association’s] interpretation of its requirements for financial stability and a sound financial
base is entitled to deference.”218 The Court agrees that
it is reasonable for the Southern Association to interpret the term “verifiable” to mean capable of being
verified by the committee at the time of submission. In
fact, it is more reasonable than Paine’s purported
standard. Paine’s interpretation is erroneous because
almost any information could be considered “capable
of being verified.” Thus, the phrase “verifiable” would
become meaningless as a standard. Paine argues that
an accreditation organization’s interpretation of its
own regulations, like an administrative agency’s, is not
entitled to deference if it is plainly erroneous or inconsistent with the regulation.219 However, Paine has not
216

Def.’s Br. in Opp’n to Pl.’s Mot. for Partial Summ. J., at

22.
217

Id.
St. Andrews Presbyterian Coll. v. S. Ass’n of Colls. &
Schs., Inc., 679 F. Supp. 2d 1320, 1334 (N.D. Ga. 2009); see also
Thomas M. Cooley Law Sch. v. Am. Bar Ass’n, 459 F.3d 705, 714
(6th Cir. 2006) (“While Cooley’s proposed interpretation of Rule
13 is perhaps plausible, the ABA’s reading is not clearly erroneous and in fact is more logical.”).
219
Pl.’s Reply Br., at 3.
218

App. 82
shown that the Southern Association’s interpretation
is plainly erroneous. In fact, the Southern Association’s
interpretation is more reasonable than Paine’s proffered interpretation. Therefore, the Southern Association’s interpretation of this standard is entitled to
deference.
And, even if the Appeals Committee did articulate
the incorrect standard, Paine has failed to show that
this had an adverse impact on the appeal. As discussed
above, Paine admits that the unaudited and audited
financial statements for Fiscal Year 2016 are largely
identical. The Appeals Committee, when deliberating
over this case, decided that even if the unaudited financial statements were verified, its ultimate decision
would not have changed because this information
would not have demonstrated a material change in
Paine’s financial status. Therefore, since Paine has not
established that it suffered an injury due to this alleged error, the Southern Association is entitled to
summary judgment as to this claim.
vii. Luthman’s Role in the Appeal
Finally, Paine argues that Luthman played an
improper role in the appeals process, and that this
violated the Southern Association’s Appeals Procedures.220 According to Paine, Luthman, who was a
Southern Association staff member representing the
Southern Association’s “organizational interests” and
who was “intimately involved in the loss of Paine’s
220

Pl.’s Mot. for Partial Summ. J., at 20-21.

App. 83
accreditation,” played an improper and influential role
in the appeals process.221 Paine argues, among other
things, that Luthman: was not neutral; that she was
involved in the underlying meetings of the Board of
Trustees, Executive Council, and C & R Committee;
that she demonstrated her “support” for the Southern
Association by getting into a verbal dispute outside of
the appeals hearing meeting; and that she thanked the
Southern Association’s witnesses after the appeal for
representing the interests of the Southern Association.222
However, the Court concludes that Luthman’s role
in the appeal did not violate Paine’s due process rights.
First, as discussed above, Luthman’s role in preparing
the Appeals Committee Chair and Hearing Officer was
consistent with prior Southern Association practices
and was necessary for an efficient and effective appeals
process. Furthermore, as discussed above with regard
to ex parte communications, there was no evidence that
the Appeals Committee was biased by any contacts it
had with Luthman.223 In fact, there is no evidence that
221

Id.
Id.
223
Med. Inst. of Minn. v. Nat’l Ass’n of Trade & Tech. Schs.,
817 F.2d 1310, 1314 (8th Cir. 1987) (“MIM’s improper ‘prepping’
argument is without merit because MIM has produced no evidence that the appeals panel was biased by any discussions it may
have had with NATTS’ counsel.”). In fact, the Southern Association is in a stronger position here than the organization in Medical Institute of Minnesota. In Medical Institute of Minnesota, the
accrediting agency’s legal counsel engaged in preparations with
the appeals panel. See id. In contrast, Luthman was not the
Southern Association’s counsel representing it in the appeal, but
222

App. 84
Luthman discussed anything besides the procedures,
rules, and logistics of an appeal. As Luthman explained, this was necessary because the Appeals
Committee Chair and Hearing Officer had very little
experience with the appeals process.224 “An administrative decisionmaker is entitled to a presumption of honesty and integrity.”225 “An unfavorable impression of an
applicant on the part of the accreditation agency is . . .
not bias.” Paine has failed to overcome this presumption of honesty and integrity. Paine’s accusations of
bias or animus on the part of Luthman are not based
on evidence and instead constitute conjecture.
Paine argues that, while courts normally presume
that an administrative agency’s decisions are not motivated by bias, Luthman has exhibited “a pattern of
biased conduct” or a pattern of conduct that gives rise
to a strong inference of bias.226 However, Paine fails to
articulate what exactly this pattern of biased conduct
is. Paine points to Luthman’s purported ex parte preparation sessions with the Hearing Officer and Appeals
Committee Chair and Luthman’s role in coordinating
instead was merely a Southern Association staff member who was
handling the logistics of the appeal. In fact, the Southern Association changed its rules in the 1990s to prevent its legal counsel
from engaging in this preparation role. Luthman Dep. at 61-62. If
prepping by an accreditor’s legal counsel does not violate due process, then surely the same prepping by a staff member certainly
does not either.
224
Luthman Dep. at 61-62.
225
Prof ’l Massage Training Ctr. v. Accreditation All. of Career Schs. & Colls., 781 F.3d 161, 178 (4th Cir. 2015).
226
Pl.’s Reply Br., at 9.

App. 85
the appeals process. However, it has not demonstrated
any sort of animus or bias against Paine by Luthman.
Instead, Paine relies upon mere speculation that
Luthman acted in a way that was motivated by bias
against it. This is not enough to overcome the Court’s
presumption that the Southern Association and
Luthman acted without bias.
Furthermore, even if Luthman’s role in Paine’s appeal was improper and did violate the Appeals Procedures, Paine has failed to show that it was prejudiced
by this improper role. Paine argues that Luthman
“maneuvered behind the scenes to prejudice Paine’s
chances of prevailing in the appeal” by not providing
Paine with the complete administrative record, by
having privileged communications with the Southern
Association’s attorney, by selecting a hearing officer
from two potential candidates, and more.227 However,
Paine has not articulated how this impacted the ultimate decision by the Appeals Committee to uphold the
removal decision, and many of these contentions were
rejected in the discussion above. Since Paine has failed
to show that Luthman’s role in the appeal had an actual, adverse impact on the adjudicative process, this
claim fails.
C. Breach of Contract
Finally, both Paine and the Southern Association
move for summary judgment as to Paine’s breach of
contract claim. Paine argues that the Principles, the
227

Pl.’s Mot. for Partial Summ. J., at 21-22.

App. 86
Southern Association’s procedures and policies, and
the Appeals Procedures constitute a contract between
Paine and the Southern Association because the College Delegate Assembly, including a representative
from Paine, approved these policies.228 According to
Paine, the Southern Association breached this “contract,” and it is entitled to summary judgment. In contrast, the Southern Association argues that Paine’s
breach of contract claim is “legally foreclosed” because
the Higher Education Act provides exclusive federal
jurisdiction for cases involving accreditation decisions.229 The Court agrees that this breach of contract
claim fails as a matter of law.
“Congress did not specify a source of law for these
suits, but it is hard to see how state law could govern
when federal jurisdiction is exclusive.”230 “[I]t is all but
impossible to see how federal courts could apply state
law to the actions of accrediting agencies when state
courts have been silenced by the provision for exclusive
jurisdiction.”231 Indeed, contract law is not a good fit for
these disputes. “[A]ccrediting bodies are not engaged
in commercial transactions for which state-law contract principles are natural matches.”232 “The ‘contract’
the School wants to enforce is not a bargained-for
228

Pl.’s Mot. for Partial Summ. J., at 24.
Def.’s Mot. for Summ. J., at 10-11.
230
Chicago School of Automatic Transmissions, Inc. v. Accreditation All. of Career Schs. & Colls., 44 F.3d 447, 449 (7th Cir.
1994).
231
Id.
232
Id.
229

App. 87
exchange but a set of rules developed by an entity with
many of the attributes of an administrative agency.”233
Accreditation agencies can also adopt and change their
rules unilaterally, showing that these rules are not
akin to the terms of a contract. Furthermore, accrediting agencies such as the Southern Association are acting as proxies for the Department of Education, which
has delegated this important public function.234 Because of this, these organizations have many of the
attributes of an administrative agency. If a federal
agency made these accreditation decisions, there
would be no question that the Administrative Procedure Act would govern judicial review, and “the court
would inquire whether the agency’s decision was ‘arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law’ or reached ‘without observance of procedure required by law.’ ”235 Thus, federal administrative law, and not state contract law,
provides the best fit for these claims.236 Because of this,
the Court finds that Paine’s breach of contract claim
fails as a matter of law.237

233

Id.
Id.
235
Id. (quoting 5 U.S.C. § 706(2)(A), (D)).
236
Additionally, Paine’s breach of contract claim would involve essentially the same question as Paine’s common law due
process claims. Under Paine’s breach of contract theory, the question of whether the Southern Association breached its purported
contract with the Plaintiff would entail the same analysis of
whether it followed its procedures.
237
Furthermore, in its Brief in Opposition to the Southern
Association’s Motion for Summary Judgment, Paine argues that
234

App. 88
IV.

Conclusion

For the reasons stated above, the Defendant The
Southern Association of Colleges and Schools Commission on Colleges, Inc.’s Motion for Summary Judgment
[Doc. 70] is GRANTED, and the Plaintiff The Paine
College’s Motion for Partial Summary Judgment [Doc.
71] is DENIED.
SO ORDERED, this 11th day of October, 2018.
/s/ Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

the Southern Association’s claim for attorneys’ fees should be considered preempted if the Court rules that Paine’s breach of contract claim is preempted. See Pl.’s Br. in Opp’n to Def.’s Mot. for
Summ. J., at 21. In Count VI of the Complaint, Paine seeks a declaratory judgment that the Southern Association’s fee-shifting
provision is unenforceable. However, neither party moves for
summary judgment on this issue. Paine does not move for summary judgment as to this issue in its Motion for Partial Summary
Judgment, and the Southern Association also does not move for
summary judgment as to this issue in its Motion for Summary
Judgment. Therefore, the Court declines to address the issue of
attorneys’ fees.

App. 89
[LOGO]
Southern Association of Colleges and Schools
Commission on Colleges
1866 Southern Lane
Decatur, Georgia 30033-4097
THE APPEALS PROCEDURES
OF THE COLLEGE DELEGATE ASSEMBLY
Policy Statement
The Appeals Procedures of the College Delegate Assembly is an administrative process approved by the
College Delegate Assembly of the Southern Association of Colleges and Schools Commission on Colleges
(SACSCOC) allowing applicant, candidate, and member institutions to appeal adverse decisions taken by
the Commission’s Board of Trustees. As such, the appeals process is not subject to legal rules of evidence
and legal procedures. Throughout the appellate process, the institution bears the burden of proof.
I.

Appealable Actions
An institution may appeal only the following decisions made by the Commission’s Board of
Trustees or its standing committees regarding
an institution’s status of recognition:
A.

Denial of Candidacy for Initial Accreditation

B.

Removal from Candidacy for Initial Accreditation

C.

Denial of Initial Membership

D. Removal from Membership

App. 90
II.

Selection of the Appeals Committee and
the Hearing Officer
A. The Appeals Committee
The Appeals Committee shall consist of
twelve persons elected by the College Delegate Assembly and who have served on the
Commission’s Board of Trustees: eight chief
executive officers, two faculty/academic personnel, and two public members. A minimum of five members of the Appeals
Committee shall constitute a quorum. A decision will be based on majority vote.
Nominations for this committee shall be
submitted by the Nominating Committee of
SACSCOC to the College Delegate Assembly for election. The Nominating Committee
shall consist of five members appointed by
the Chair of the Board of Trustees of SACS
Commission on Colleges for one-year terms.
Three of those five members must be chief
executive officers. Members of the Nominating Committee and the Appeals Committee
shall not be serving on the Commission’s
Board of Trustees or any standing committee of the Board when appointed or elected,
or when serving their term of office.
A member of the Appeals Committee shall
recuse him/herself from that appeals hearing if there is a conflict of interest or an appearance of a conflict of interest. Conflict of
interest, or the appearance of conflict of interest, as applied to members of the Appeals
Committee exists if the Committee member

App. 91
(1) is employed within a state where the
parent campus of the institution is located,
(2) has voted on the accreditation status
of the institution—either during the
SACSCOC Board meeting or the meetings
of the Committees on Compliance and Reports—at any time leading to the appealable decision, or (3) has served as a member
of the site team which visited the institution and resulted in a committee report at
any time leading to the appealable decision.
Conflict of interest, or the appearance of
conflict of interest, also exists if the Committee member determines that he or she
(1) has been a compensated consultant, an
appointee or employee of the institution, or
recently has been a candidate for employment at the institution, (2) is a graduate of
the institution appealing the Commission’s
decision, (3) has a close personal or familial
relationship with persons at the institution
or a strong bias regarding the institution,
(4) is a stockholder or board member of the
institution, or (5) is a member of an association or activity that an impartial person
might reasonably conclude would compromise the capacity of a member of the Appeals Committee to deal objectively with
the action under appeal.
Conflict of interest includes but is not limited to the examples cited above.

App. 92
The Chair of the Board of Trustees of SACS
Commission on Colleges will fill vacancies
on the Appeals Committee which occur
during terms of office when it is necessary
to obtain a quorum.
Members of the Appeals Committee are
elected for three-year terms. The terms of
four of the members expire each year. Members shall not be elected for consecutive
terms.
B.

The Chair of the SACSCOC Board of Trustees shall appoint the Chair of the Appeals
Committee from the committee members.
The Committee Chair is appointed for a
one-year term and may serve consecutive
terms.

C.

The Hearing Officer
Three individuals shall be elected by the
College Delegate Assembly to serve as
Hearing Officers for the Appeals Committee
of the College Delegate Assembly. Nominations for these positions shall be submitted
by the Nominating Committee of SACS
Commission on Colleges to the College
Delegate Assembly for election. Persons
nominated by the Committee must be experienced or trained in hearing procedures
and be affiliated with a member institution
of the Commission on Colleges. Nominees
shall not be members of the College Delegate Assembly or members of the
SACSCOC Board of Trustees.

App. 93
Hearing Officers are elected for three-year
terms. The term of one of the officers expires
each year. A Hearing Officer may not be
elected for consecutive terms.
A Hearing Officer will be designated on a
rotating basis by the President of
SACSCOC to preside during a particular
appeals hearing. Neither the institution nor
the SACSCOC Board of Trustees may select
the Hearing Officer. If the Hearing Officer
has a conflict of interest with the case being
appealed, the Officer shall be excused from
that appeals case.
As defined by SACSCOC policy, conflict of
interest, or the appearance of conflict of interest, as applied to the Hearing Officer exists if that individual (1) is employed within
a state where the parent campus of the institution is located, or (2) has served as a
member of the site team which visited the
institution and resulted in a committee report at any time leading to the appealable
decision.
Conflict of interest, or the appearance of
conflict of interest, also exists if the Hearing
Officer determines that he or she (1) has
been a compensated consultant, an appointee or employee of the institution, or recently has been a candidate for employment
at the institution, (2) is a graduate of the institution appealing the SACSCOC Board
decision, (3) has a close personal or familial
relationship with persons at the institution

App. 94
or a strong bias regarding the institution,
(4) is a stockholder or board member of the
institution, or (5) is a member of an association or activity that an impartial person
might reasonably conclude would compromise the capacity of the Hearing Officer
to deal objectively with the action under
appeal.
Conflict of interest includes but is not limited to the examples cited above.
III.

Duties and Authority of the Chair and the
Hearing Officer
In general, the Chair presides over the deliberations of the Appeals Committee and the Hearing Officer presides over the appeals hearing,
ruling on all procedural questions prior to, during, or following the hearing.
A.

Chair of the Appeals Committee
The Chair of the Appeals Committee is responsible for presiding over deliberations of
the Committee and for actively participating in discussions regarding an institution’s
grounds for appeal. He or she does not preside during the appeals hearing. In addition, the Chair
1.

provides, with the Hearing Officer, an
orientation of the Appeals Committee
members

App. 95

B.

2.

outlines and explains to the Appeals
Committee the range of decisions it is
authorized to make

3.

consults with the Hearing Officer on
procedural matters

4.

notifies the President of the Commission and the institution’s board chair
and chief executive officer of the Committee’s decision within seven days of
the appeals hearing date.

Hearing Officer
The Hearing Officer is responsible for ruling on all procedural questions brought forward by the institution or by SACSCOC
prior to, during, and following the hearing.
In addition, the Hearing Officer
1.

notifies SACSCOC and the institution
in writing of rights and responsibilities relative to the hearing

2.

provides a written outline of procedures to SACSCOC and the institution, or, if requested by the institution,
conducts a pre-hearing conference on
procedures

3.

provides, with the Appeals Committee
Chair, an orientation of the Appeals
Committee members

4.

presides over the hearing, including
(a) setting the time limit of presentations (b) ruling on the admissibility of

App. 96
evidence (c) administering oaths, and
(d) ruling on procedural matters

IV.

5.

meets with the Appeals Committee
solely to advise on procedures and limitations

6.

assists the Appeals Committee in the
development of a draft of its decision

Appellate Procedures
The following procedures must be adhered to in
an appeal:
A. The request for an appeals hearing must be
made in writing by the chief executive officer and sent by facsimile to the President
of SACSCOC within ten calendar days of
the date of the institution’s receipt of notification of the adverse decision of the Board
of Trustees. The original letter must be next
day express mailed to the SACSCOC President.
B.

Grounds for an appeal of the SACSCOC
Board of Trustees’ decision are limited to
the following:
1.

that the Board failed to follow its procedures and that this failure was significant in leading to the decision

2.

that the Board’s decision was arbitrary,
that is, was unreasonable and not
based on, or consistent with, the published Principles of Accreditation or
policies of the Commission.

App. 97
The request of an institution for an appeals
hearing must identify the specific alleged
procedural failures or the specific manner
in which the decision was arbitrary, that is,
was unreasonable and not based on, or consistent with, the published Principles of Accreditation or policies of the Commission.
If an institution has been removed from accreditation based solely on finances, it can
make available to the Appeals Committee
new and verifiable financial information
that is material to the Board’s adverse decision.
C.

An institution requesting an appeals hearing shall, at the time of the request, pay the
treasurer of the Southern Association of
Colleges and Schools Commission on Colleges a deposit of $15,000 to cover the
travel, lodging, meal and other charges incurred by the Hearing Officer and by convening the Appeals Committee. If the
expenses incurred exceed the deposit, the
institution will be assessed the additional
amount. If expenses are less, then the difference will be refunded to the institution.

D. When the President of SACSCOC acknowledges in writing the institution’s request for
an appeals hearing, the President of
SACSCOC will also notify the institution of
the dates of the hearing (Monday, Tuesday,
or Wednesday of the third week of February
for actions taken the previous December;
and Monday, Tuesday, or Wednesday of the

App. 98
third week in August for actions taken in
June). The institution must notify the
SACSCOC President of its preference of day
within the designated week. The Commission will make every effort to honor that
preference but cannot guarantee the date.
The date for the hearing will be determined
by the availability of members of the Appeals Committee to hear the case and by the
establishment of a quorum. The final determination of the date will be made by the
President of SACSCOC after consultation
with the Hearing Officer and members of
the Appeals Committee.
E.

At least 30 days before the date of the appeals hearing, SACSCOC must submit to
the institution and the appeals Hearing Officer documents (administrative record)
used by the SACSCOC Board leading to and
arriving at the decision regarding the institution. The administrative record includes
the following: (1) minutes of the Committee
on Compliance and Reports as pertain exclusively to the institutional case, (2)
minutes of the Executive Council as pertain
exclusively to the institutional case, (3) a
historical summary of Commission actions
involving the institution, (4) a transcript of
the meeting on the record conducted by the
Committee on Compliance and Reports
prior to the decision of the Board to take adverse action, (5) official Commission correspondence leading to the adverse action and
also related to the appeal, (6) all case materials forwarded to the Committee on

App. 99
Compliance and Reports and used as a basis for the recommendation of an adverse
action, and (7) other documents bearing on
the substance of the appeal.
At least 14 days before the date of the appeals hearing, the institution must submit
to the President of SACSCOC and the Hearing Officer the brief it intends to present at
the hearing. The brief must specifically direct Appeals Committee members to citations in the administrative record which
justify the institution’s grounds for appeal.
The institution must cite page numbers of
the text supporting its position. The institution is required to submit ten copies of its
brief. Failure of the institution to provide a
brief within the specified period time will be
cause for case dismissal by the Hearing Officer.
At least ten days before the date of the appeals hearing, SACSCOC is required to submit copies of the administrative record and
the institution’s brief to the Chair and
members of the Appeals Committee.
At least seven days before the date of the
appeals hearing, SACSCOC must submit to
the institution, the appeals Hearing Officer,
and the Chair and members of the Appeals
Committee, its response to the brief of the
institution.
Neither the institution nor the Commission
may submit additional briefs or any other

App. 100
materials during or following the appeals
hearing.
F.

Throughout the appellate process, the institution will bear the burden of proof.

G. The SACSCOC Board of Trustees bases its
adverse decision on committee reports, institutional responses and any other documentation and evidence presented by the
institution. If the institution failed to present documentation and evidence available
at the time the Board of Trustees took adverse action, it cannot make that information available for consideration by the
Appeals Committee under any circumstances. In addition, neither SACSCOC nor
the institution may include new materials
as part of their briefs presented to the Appeals Committee nor may they introduce
new evidence during the appeals hearing
unless, in the case of an institution removed
from accreditation based solely on finances,
it makes available new and verifiable financial information that has become available
since adverse action was taken and that is
material to the reason for the SACSCOC
Board of Trustees’ adverse decision.
It is incumbent upon all parties to ensure
that all evidence to be presented at the hearing is submitted as required by these procedures.
H. Appeals hearings are closed to the public
and include only those persons who can
speak to the grounds for appeal. No more

App. 101
than six persons and one attorney of counsel may appear for each of the parties. Both
parties may be present during the hearing.
At least 14 days before the date of the hearing, the institution and SACSCOC must
submit to the Hearing Officer and to the
other party the names and titles of those individuals selected to appear. Once the
names have been submitted to the Hearing
Officer and to the other party, there may be
no substitutions without prior approval
from the Hearing Officer.
I.

Since the institution bears the burden of
proof, the institution will be the first party
to present its case during the appeals hearing.

J.

The Hearing Officer will limit the presentation of the institution and the Commission
to one hour each, and shall notify both before the hearing of such time limit. The one
hour does not include a time period for
questioning from the members of the Appeals Committee. At the request of
SACSCOC or the institution, the Hearing
Officer may allow time for final response by
either party, not to exceed one-half hour.
These time limits can be extended only by
the Hearing Officer. Since the institution
bears the burden of proof, the institution
will be the first party to present a final response.

K. Within seven days of the date of the appeals
hearing, the Chair of the Appeals

App. 102
Committee shall inform the President of
SACSCOC and the institution’s chief executive officer and chair of the board in writing of the decision. This notification must
include specific reasons for the decision,
must address each of the grounds for appeal
identified by the institution, and must address the Commission’s findings with regard to standards on which the SACSCOC
Board of Trustees’ decision was based.
The notification will be sent by facsimile
and will be deemed acceptable by transmission. The original letters will be next-day
express mailed to each party.
L.

V.

SACSCOC staff members are responsible
for sending all material concerning the appeals case to members of the Appeals Committee and its Hearing Officer; for providing
support services, including lodging, transportation and meeting space for the Committee; for confirming the date of the
appeals hearing; and for securing the services of a court reporter.

Conditions
A.

Appeals are administrative, not judicial
hearings, with each party to the appeal advocating its position. Therefore, legal Rules
of Evidence and legal procedures, such as
the examination of the competency of members of the Appeals Committee, the use of
sidebars, or cross-examining those present,
are prohibited.

App. 103
B.

C.

During the appeals hearing, the institution
shall bear the burden of proof.
1.

To gain a reversal of the SACSCOC
Board of Trustees’ decision, the institution must present evidence which, in
the judgment of the Appeals Committee, demonstrates that the Board’s decision was arbitrary, that is, was
unreasonable and not based on, or consistent with, the published Principles of
Accreditation or policies of SACSCOC.

2.

In order to gain a remand, the institution must present evidence which, in
the judgment of the Appeals Committee, demonstrates that the SACSCOC
Board of Trustees failed to follow its
procedures and that this failure was
significant in leading to its decision. An
institution removed from accreditation
based solely on finances may also gain
a remand if it presents new and verifiable financial information that has become available since the adverse action
was taken and that is material to the
reason for the Board’s decision.

3.

If the institution fails to provide evidence adequate to gain a reversal or a
remand, the initial decision of the
SACSCOC Board of Trustees must be
affirmed.

The accreditation status of an institution
for which an appealable action has been
taken shall remain as it was before such

App. 104
action until the ten-day period for filing an
appeal has expired. Receipt of a notification
of an appeal from an institution by the President of SACSCOC during this ten-day period will cause that previous status to be
continued until a final decision is made on
the appeal. If the result of an appeal is to
affirm the Board’s decision, the date of the
final decision by the Appeals Committee
shall be treated as the effective date and is
defined as the date of the notification letter
to the institution and to the SACSCOC
President.
D. All Appeals Committee members with no
conflict of interest with the case being appealed will be invited to serve.
VI.

Rights and Limitations
A. The institution and SACSCOC have the following rights in an appeal:
1.

To have available legal counsel or a representative of their choice to advise
them at the hearing. Legal counsel representing each of the parties will be
permitted to present or assist in the
presentation of the case during the
hearing. Legal counsel will not be permitted to conduct a cross-examination
of representatives from the opposing
party.
If either the institution or SACSCOC
requests a pre-hearing conference, the

App. 105
conference will be conducted by the
Hearing Officer with representatives
from both parties in attendance.

B.

2.

To present written or oral testimony
and/or evidence pertinent to the
grounds for the appeal consistent with
the prior submission requirements of
IV.E. above. Only the Appeals Committee has the right to question individuals present at the hearing. All
individuals who testify will testify under oath as administered by the Hearing Officer or the court reporter.

3.

To receive a transcript and any other
related records of the proceedings, upon
payment of the costs of reproduction.
The Committee’s discussions and deliberations, all votes taken, and the discussion on the final decision itself are
not conducted on the record. Presentations by the institution and SACSCOC,
questions asked of these representatives by the Committee members, and
responses to such questions are to be
recorded and transcribed. Transcripts
are a matter of record of the proceedings and are not used in the deliberations of the Appeals Committee.

The decision of the SACSCOC Board of
Trustees shall be reviewed based exclusively upon the conditions existing at the
time of that decision, except in the case of
an institution removed from accreditation

App. 106
based solely on finances that has available
new and verifiable financial information
that is material to the Board’s adverse decision, and shall be subject to the following
limitations:
1.

No evidence concerning the remedying
of deficiencies since the time of the
Board’s adverse action shall be presented at or before the hearing under
any circumstances. The Appeals Committee is prohibited from considering
such evidence in reaching its decision.
No new evidence made available since
the time of the Board’s adverse action
shall be presented at or before the hearing. The Appeals Committee is prohibited from considering such evidence in
reaching its decision. The only exception is that of the case of an institution
removed from accreditation based
solely on finances that has available
new and verifiable financial information that is material to the Board’s
adverse decision.
The Appeals Committee shall not, in its
decision or otherwise, instruct the
Commission staff, the SACSCOC
Board of Trustees, or its committees to
consider evidence concerning the remedying of deficiencies since the date of
the Board’s original decision. The Hearing Officer will rule on any question regarding the application of this
provision.

App. 107
2.

C.

VII.

The Hearing Officer must disallow
evidence presented by SACSCOC or
the institution
a.

which is not pertinent to the
grounds for appeal

b.

which concerns the remedying of
deficiencies since the time of the
Board of Trustee’s adverse decision

c.

which was not available to the
Board at the time of its adverse
decision, except in the case of an
institution removed from accreditation based solely on finances that
has available new and verifiable
financial information that is material to the Board’s adverse decision,

The Hearing Officer and the Chair and
members of the Appeals Committee may
not disclose the decision of the Committee
prior to receipt of official notification by the
institution and by SACSCOC nor may they
disclose the content of confidential discussions or deliberations leading to the Committee’s decision.

Actions
A.

The Appeals Committee, after the presentation of oral and/or written testimony, must
determine whether the institution has
demonstrated either of the following:

App. 108

B.

1.

that the SACSCOC Board of Trustees
failed to follow its procedures and that
the failure was significant in leading to
the decision

2.

that the Board of Trustees’ decision
was arbitrary, that is, was unreasonable and not based on, or consistent
with, the published Principles of Accreditation or policies of the Commission.

The Appeals Committee shall act within the
following limitations:
1.

The Appeals Committee shall AFFIRM
the Commission’s decision, unless it
finds
a.

that the institution has demonstrated that the SACSCOC Board
of Trustees failed to follow its procedures and that the failure was
significant in leading to the decision, or

b.

that the institution has demonstrated that the decision of the
Board of Trustees was arbitrary,
that is, was unreasonable and not
based on, or consistent with, the
published Principles of Accreditation or policies of the Commission.

c.

that an institution, removed from
accreditation based solely on finances, has produced evidence
that it has available new and

App. 109
verifiable financial information
and that the financial information
is material to the Board’s adverse
decision,
The decision by the Appeals Committee to
affirm the Board’s decision is final and is
not subject to further appeal.
The effects of AFFIRMATION of the decision are listed below:
a.

Denial of Candidacy for Initial Accreditation. Institution has no status
with
the
Commission.
Institution may reapply for membership, subject to provisions defined
in
the
Commission’s
“Accreditation Procedures for Applicant Institutions.”

b.

Removal from Candidacy for Initial Accreditation. Institution
holds no status with SACSCOC.
Institution may reapply for membership, subject to provisions defined
in
the
Commission’s
“Accreditation Procedures for Applicant Institutions.”

c.

Denial of Initial Membership. Institution holds no status with
SACSCOC. Institution may reapply for membership, subject to provisions
defined
in
the
Commission’s “Accreditation Procedures for Applicant Institutions.”

App. 110
d.

2.

Removal from Membership. Institution is dropped from membership
(no
longer
accredited)
effective on the date the original
decision is affirmed. Institution
may reapply for membership, subject to provisions defined in the
Commission’s “Accreditation Procedures for Applicant Institutions.”

The Appeals Committee shall reverse
the decision of the Board of Trustees if
it finds that the institution has demonstrated that the Board’s decision was
arbitrary, that is, was unreasonable
and not based on, or consistent with,
the published Principles or policies of
the Commission. The decision by the
Appeals Committee to reverse is final.
The effects of REVERSAL of the original decision are listed below:
a.

Denial of Candidacy for Initial Accreditation. Institution is granted
Candidate status retroactive to the
date which would have been specified at the time if the original decision had been positive.

b.

Removal from Candidacy for Initial Accreditation. Institution continues in Candidate status. This
status was automatically restored
when appeal was made.

App. 111

3.

c.

Denial of Initial Membership. Institution is admitted to membership retroactive to the date which
would have been specified at the
time if the original decision had
been positive.

d.

Removal from Membership. Institution continues in membership
with any outstanding sanctions for
a maximum of one year and in accordance with the Commission policy,
“Sanctions,
Denial
of
Reaffirmation, and Removal from
Membership.”

The Appeals Committee shall remand
the case either to the Committees on
Compliance and Reports, the Executive
Council, or the SACSCOC Board of
Trustees if it finds that the institution
has demonstrated that one of the above
groups failed to follow its procedures
and that the failure was significant in
leading to the decision or if the Appeals
Committee finds that an institution, removed from accreditation based solely
on finances, has produced evidence that
it has available new and verifiable financial information and that the financial information is material to the
Board’s adverse decision.
The Appeals Committee shall remand
to the specific group where the procedural error first occurred with specific

App. 112
instructions to review the case taking
into consideration any findings of the
Appeals Committee. The Appeals Committee shall remand to the Committees
on Compliance and Reports the case of
an institution, removed from accreditation based solely on finances, if it finds
that the institution has produced evidence that it has available new and verifiable financial information and that
the financial information is material to
the Board’s adverse decision.
If the Appeals Committee remands, the
reconsideration shall occur at the next
meeting of the SACSCOC Board of
Trustees and its standing committees
following the date of the decision of the
Appeals Committee, and the procedure
will be as indicated below. If the Appeals Committee remands the case of
an institution removed from accreditation based solely on finances, it may
also authorize a committee to visit the
institution before the next meeting of
the Board of Trustees to determine the
impact of the new financial information
on the institution’s ongoing compliance
with the Principles of Accreditation.
a.

In the case of a remand to one of
the Committees on Compliance
and Reports, the Committee on
Compliance and Reports will make
a recommendation to the Executive Council, which will make a

App. 113
recommendation to the Board of
Trustees. The action of the Board is
final subject to any rights which
the institution might have as described in Commission policies. If
the Board of Trustees affirms its
original decision, the institution
may again appeal based on the
grounds for appeals as outlined in
V. The case will be heard again by
the Appeals Committee, which will
then make a final decision to affirm
or reverse. It cannot remand again.
This applies to the case of an institution removed from accreditation
based solely on finances.
b.

In the case of a remand to the Executive Council, the Council will
make a recommendation to
SACSCOC Board of Trustees. The
action of the Board is final subject
to any rights which the institution
might have as described in Commission policies. If the Board affirms its original decision, the
institution may again appeal
based on the grounds for appeal as
outlined in V. The case will be
heard again by the Appeals Committee, which will then make a final decision to affirm or reverse. It
cannot remand again.

c.

In the case of remand to the Board
of Trustees, the Board will take

App. 114
final action subject to any rights
which the institution might have
as described in Commission policies. If the Board affirms its original decision, the institution may
again appeal based on the grounds
for appeal as described in V. The
case will be heard again by the Appeals Committee, which will then
make a final decision to affirm or
reverse. It cannot remand again.
Document History
Approved: College Delegate Assembly,
December 1991 Edited and Revised in
accord with the Principles: Commission
on Colleges, 2002 and December 2003
Revised and Adopted: College Delegate
Assembly, December 2007 Approved:
College Delegate Assembly, December 2009
Edited: December 2010 in accord with
Bylaws changes Edited: SACSCOC
Board of Trustees, June 2014
Reformatted July 2014

